<html>
<title> - THE ROLE OF NON-GOVERNMENTAL ORGANIZATIONS AND UNIVERSITIES IN INTERNATIONAL SCIENCE AND TECHNOLOGY COOPERATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      THE ROLE OF NON-GOVERNMENTAL
                     ORGANIZATIONS AND UNIVERSITIES
                      IN INTERNATIONAL SCIENCE AND
                         TECHNOLOGY COOPERATION

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2008

                               __________

                           Serial No. 110-114

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE
43-350 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona           PAUL C. BROUN, Georgia
CHARLES A. WILSON, Ohio
ANDRE CARSON, Indiana
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
RUSS CARNAHAN, Missouri              DAVID G. REICHERT, Washington
BARON P. HILL, Indiana               BRIAN P. BILBRAY, California
ANDRE CARSON, Indiana                    
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                    BESS CAUGHRAN Research Assistant



                            C O N T E N T S

                             July 15, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     8

Prepared Statement by Representative Russ Carnahan, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........     8

                               Witnesses:

Dr. Alan I. Leshner, Chief Executive Officer, American 
  Association for the Advancement of Science; Executive 
  Publisher, SCIENCE
    Oral Statement...............................................     9
    Written Statement............................................    11
    Biography....................................................    14

Dr. Michael T. Clegg, Foreign Secretary, National Academy of 
  Sciences, The National Academies
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    22

Dr. William A. Wulf, Member, Board of Directors, U.S. Civilian 
  Research and Development Foundation (CRDF)
    Oral Statement...............................................    23
    Written Statement............................................    25
    Biography....................................................    37

Dr. James A. Calvin, Interim Vice President for Research; 
  Professor of Statistics, Texas A&M University
    Oral Statement...............................................    39
    Written Statement............................................    41
    Biography....................................................    46

Discussion.......................................................    46


    THE ROLE OF NON-GOVERNMENTAL ORGANIZATIONS AND UNIVERSITIES IN 
            INTERNATIONAL SCIENCE AND TECHNOLOGY COOPERATION

                              ----------                              


                         TUESDAY, JULY 15, 2008

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                      The Role of Non-governmental

                     Organizations and Universities

                      in International Science and

                         Technology Cooperation

                         tuesday, july 15, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    The purpose of the hearing is to examine the role of U.S. non-
governmental organizations and universities in international science 
and technology cooperation, in particular relative to the role of the 
Federal Government.

2. Witnesses:

        <bullet>  Dr. Alan Leshner, Chief Executive Officer, American 
        Association for the Advancement of Science (AAAS), and 
        Executive Publisher of the journal Science.

        <bullet>  Dr. Michael Clegg, in his capacity as Foreign 
        Secretary, National Academy of Sciences. Dr. Clegg is also 
        Donald Bren Professor of Biological Sciences and of Ecology and 
        Evolutionary Biology at the University of California, Irvine.

        <bullet>  Dr. William Wulf, in his capacity as a Member of the 
        Board of Directors, Civilian Research and Development 
        Foundation (CRDF). Dr. Wulf is also AT&T Professor of Computer 
        Science at the University of Virginia and immediate Past 
        President of the National Academy of Engineering.

        <bullet>  Dr. James Calvin, Interim Vice President for 
        Research, Texas A&M University. Dr. Calvin is also a Professor 
        of Statistics at Texas A&M.

3. Overarching Questions:

        <bullet>  What are the roles of non-governmental organizations 
        (NGOs) and universities in fostering international science 
        cooperation relative to that of the Federal Government and to 
        each other? What unique strengths does each of the 
        organizations represented at the hearing bring to this effort? 
        What are their respective limitations? How do NGOs and 
        universities coordinate their efforts with the Federal 
        Government and with each other?

        <bullet>  How might the Federal Government take better 
        advantage of science and the U.S. scientific community in 
        pursuing its foreign policy goals and in helping to lead the 
        world toward global solutions for global challenges such as 
        water, climate, energy and infectious diseases?

4. Overview

    On April 2, 2008, the Subcommittee on Research and Science 
Education held a hearing to examine the federal role in international 
science and technology (S&T) cooperation.\1\ Witnesses were invited 
from the Office of Science and Technology Policy (OSTP), the National 
Science Foundation (NSF), the Department of State (DOS), and the 
National Aeronautics and Space Administration (NASA). The research 
agencies, such as NSF and NASA, support science for the sake of 
science; that is, they support cooperative research activities that 
enable U.S. scientists to work with the best scientists and access the 
best research sites around the world, or that leverage foreign funds to 
build world class research facilities. However, witnesses agreed that 
while DOS is responsible for establishing U.S. diplomatic priorities, 
the research agencies support cooperative S&T activities that may also 
benefit U.S. diplomatic objectives. Furthermore, OSTP and the research 
agencies provide intellectual support to DOS on S&T-related issues, and 
DOS helps the research agencies negotiate formal international S&T 
agreements. The purpose of the April 2 hearing was to learn about the 
breadth of U.S. Government sponsored cooperative S&T activities and to 
examine the extent to which these activities are coordinated or 
prioritized across the government.
---------------------------------------------------------------------------
    \1\ http://science.house.gov/publications/
hearings<INF>-</INF>markups<INF>-</INF>details.aspx?NewsID=2134
---------------------------------------------------------------------------
    The purpose of this hearing is to examine the role of non-
governmental organizations in international S&T cooperation, and the 
relationship between those organizations and the Federal Government. 
NGOs and universities play critical roles in promoting and managing 
U.S. participation in international S&T cooperation. Scientific 
organizations such as the National Academies and the American 
Association for the Advancement of Science (AAAS) can mobilize U.S. 
scientific leadership in a way that the U.S. Government generally 
cannot, and they can engage in troubled countries where the government 
has strained or no official diplomatic relations. The U.S. Civilian 
Research and Development Foundation (CRDF) also has more flexibility 
and credibility than official government representatives in certain 
regions. Organizations such as the Institute for International 
Education (IIE) and NAFSA: Association of International Educators 
promote the open exchange of students and scholars across borders. 
Universities not only welcome foreign students and scholars to their 
campuses and send their own students and scholars abroad, they are 
increasingly experimenting with satellite campuses in regions such as 
the Middle East and in educating a more globally aware student body. 
Finally, a number of private foundations fund certain science or 
technology based initiatives, typically in agriculture and/or health, 
including Gates, Sloan, Carnegie, and Rockefeller. One much smaller 
foundation, the Lounsbery Foundation, provides seed funding to help 
jump-start international cooperative S&T activities not related to 
agriculture, health or other areas not supported by the big 
foundations.

5. NGO Activities in International S&T Cooperation

    The National Academies (comprised of the National Academy of 
Sciences, the National Academy of Engineering and the Institute of 
Medicine) have a long history of engagement in global S&T issues, run 
primarily out of the Policy and Global Affairs Division. The National 
Academies are represented at the 18-Member InterAcademy Council and the 
98-Member InterAcademy Panel, both of which are global networks of 
national and/or regional science academies that take on global S&T 
challenges. The Council produces reports for policy-makers on global 
issues, most recently on a sustainable energy future, whereas the Panel 
is focused more on capacity building. The National Academies also work 
on a bilateral basis--for example with China on biosecurity and with 
Israel and the Palestinian Authority on water issues. They frequently 
sponsor meetings and workshops to bring together scientists and 
engineers from different countries but with common interests and 
challenges. In general, the National Academies have unparalleled 
credibility and a unique ability to regularly mobilize a global network 
of scientists and our own scientific leadership in cooperative efforts 
to address global concerns across the spectrum of S&T issues.
    The American Association for the Advancement of Science (AAAS), 
publisher of Science magazine, also has global credibility and name 
recognition, but does not have the same built-in network of comparable 
organizations. The AAAS International Office, which has just a handful 
of staff, supports three strategic goals: international scientific 
cooperation; capacity-building and workforce enhancements (including 
increased participation of women in science); and sustainable 
development. The AAAS Center for Science, Technology and Security also 
works on a global level to address non-proliferation and arms control. 
AAAS does not produce reports directly for policy-makers, but it does 
produce reports for the community that are often of interest to policy-
makers. AAAS also facilitates meetings of scientists from around the 
world, sometimes in partnership with the National Academies. The theme 
of the 2008 AAAS Annual Meeting was ``Science and Technology from a 
Global Perspective'' and among the keynote speakers were the President 
of the Republic of Rwanda and the Science Adviser to the Secretary of 
State. As an organization they are making a concerted effort to engage 
more U.S. scientists in international cooperation.
    The U.S. Civilian Research and Development Foundation (CRDF) was 
authorized by Congress in 1992 (P.L. 102-511) and established by NSF in 
1995. CRDF receives support from several foundations and from the U.S. 
Government--primarily an annual grant from DOS, but also lesser amounts 
for specific programs from NSF, NIH, and DOD. While CRDF has many 
different kinds of programs in cooperative science research, education 
and training, including an industry partnership program, it is perhaps 
best known for its role in helping to redirect weapons scientists in 
the Former Soviet Union (FSU). CRDF, as an NGO without the constraints 
of official government-to-government diplomacy and bureaucracy, became 
very adept at enlisting FSU weapons scientists in cooperative civilian 
research with U.S. scientists, and bypassing bureaucracy and corruption 
on the FSU side to transfer to the scientists the funds necessary to 
partner in this research. In 2004, CRDF began to expand its reach 
beyond the FSU to developing countries and troubled regions throughout 
the world as well as to broaden its expertise to the full range of 
global S&T challenges.
    The international programs and initiatives at Texas A&M University 
are fairly representative of such programs at research universities 
across the country. Texas A&M has formal research agreements with more 
than 130 institutions in 45 countries and enrolls over 4,000 
international students from 124 countries. Nationwide, 40.5 percent of 
the 583,000 foreign students studying in the U.S. in 2006-07 were 
enrolled in science and engineering programs.\2\ The university also 
welcomes international faculty and scholars for limited term research 
and education appointments and likewise sends some of its own faculty 
to foreign universities. The Research and Science Education 
Subcommittee explored the benefits of the open exchange of science and 
engineering students and scholars in a February 2008 hearing.\3\ In 
addition, Texas A&M maintains two overseas centers in Italy and in 
Mexico City and is currently establishing a third one in Costa Rica. 
Faculty and students have participated in more than 600 research and 
development projects in over 80 countries. In 2003 the university 
opened a branch campus in Doha, Qatar, offering four undergraduate 
engineering degrees. It will soon be establishing research centers and 
graduate programs at the Qatar campus. The Technology and Innovation 
Subcommittee examined the specific issue of the internationalization of 
U.S. universities as part of a July 2007 hearing on the globalization 
of R&D.\4\
---------------------------------------------------------------------------
    \2\ ``Open Doors Report on International Educational Exchange,'' 
Institute of International Education, 2007.
    \3\ http://science.house.gov/publications/
hearings<INF>-</INF>markups<INF>-</INF>details.aspx?NewsID=2064
    \4\ http://science.house.gov/publications/
hearings<INF>-</INF>markups<INF>-</INF>details.aspx?NewsID=1926

6. Questions for Witnesses

    All four witnesses were asked to address in their testimony 
questions similar to the ``overarching questions'' listed previously.
    Chairman Baird. Good morning. Our hearing will come to 
order. I want to thank all our witnesses, my dear friend, Dr. 
Ehlers, and Members in the audience for being here. This is the 
third hearing we are having in a series of meetings dealing 
with the issue of international scientific collaboration and 
what some have called scientific diplomacy, the idea that 
scientific exchanges can go a long way towards not only 
advancing science itself but advancing international 
relationships. Both Dr. Ehlers and I are very passionate about 
this, both of us trained as scientists, and having had the 
privilege of meeting people from around the world who have been 
impacted by collaborative exchanges, we place a high value on 
this.
    In the past, we have heard from government agencies, and 
today we will hear from three non-governmental organizations 
that engage in scientific diplomacy and from a university that 
supports research and education partnerships, not just across 
its southern borders but halfway across the world to a country 
and culture radically different from our own, and we look 
forward to hearing about that. As important as it is for the 
U.S. Government to actively engage in science diplomacy, the 
organizations we are having with us today represented here add 
unique value to the effort. They are widely known and respected 
throughout the world. They represent the best of U.S. science 
and higher education, and they have the flexibility, the 
connections, and the know-how to engage scientists and pursue 
good science even in countries where government-to-government 
relations are tense or limited and in countries with limited 
S&T capacity of their own.
    I had an interesting brief chat with Dr. Leshner earlier 
about, for example, the challenge in some cultures of producing 
non-significant results, if that is a failure of experience and 
failure is not allowed, goodness gracious, how do you do 
science if you cannot fail?
    While I often emphasize the diplomatic benefits of 
international science and technology cooperation, there are 
also many compelling reasons for the U.S. public and private 
sectors alike to make S&T cooperation a national priority. 
Visit any of the high-tech enterprises in my district and I am 
sure across the country and you will see they are indeed 
international endeavors, and bringing people here, sending our 
people internationally, is an often I think unseen benefit of 
collaboration.
    The major challenges faced by our nation are the major 
challenges faced by the entire globe, and our country cannot 
effectively pursue solutions on its own.
    So, I look forward to hearing from this very distinguished 
panel of witnesses about their efforts to promote international 
science and cooperation as well as their recommendations for 
how the Federal Government might strengthen its efforts through 
more effective partnerships with U.S. scientific organizations 
and research universities.
    I will tell you a brief anecdote which others have heard 
before, but I think it is so compelling that I will tell it 
often here and it is in visiting Egypt a couple of years ago at 
an international meeting and meeting a young woman with a head 
scarf. Actually, not a young woman, she was probably in her 
late 50's with a head scarf, kind of classic Arabic woman; and 
when she was introduced to Howard Berman, he said he was from 
southern California, a proud fist shot into the air and the 
woman said, I am a mighty Trojan. She had gotten her doctorate 
at USC, and she didn't just say I got my doctorate at USC, she 
had become a mighty Trojan. And that kind of affection and 
sincere warmth one doesn't take lightly. And it is through 
scientific collaboration that much of that is achieved.
    And so we look forward to our witnesses today, and with 
that I recognize Dr. Ehlers for opening remarks.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    Good morning. Welcome to this Research and Science Education 
Subcommittee hearing on The Role of Non-governmental Organizations and 
Universities in International Science and Technology Cooperation.
    Three months ago this subcommittee heard testimony from a panel of 
senior governmental officials representing some of the key federal 
agencies and offices responsible for supporting and setting priorities 
for U.S. participation in international science and technology 
cooperation. In that hearing we learned a little about the breadth of 
cooperative S&T activities supported by the U.S. Government. We learned 
that research agencies are largely successful at pursuing international 
partnerships to further science and the agencies' own domestic missions 
and that the State Department actively pursues S&T agreements to 
further its foreign policy goals. However, it seems to me there is room 
for improved coordination and priority setting across agencies, 
especially when it comes to leveraging the quality and reputation of 
U.S. science to further diplomatic goals.
    This morning we will hear from three non-governmental organizations 
that actively engage in science diplomacy, and from a university that 
supports research and education partnerships not just across its 
southern borders but halfway across the world to a country and culture 
radically different from our own. As important as it is for the U.S. 
Government to actively engage in science diplomacy, the organizations 
represented here add unique value to this effort. They are known and 
respected throughout the world. They represent the best of U.S. science 
and higher education. And they have the flexibility, the connections 
and the know-how to engage scientists and pursue good science even in 
countries where government-to-government relationships are tense or 
limited and in countries with limited S&T capacity of their own.
    While I often emphasize the diplomatic benefits of international 
S&T cooperation, there are many compelling reasons for the U.S. public 
and private sectors alike to make S&T cooperation a national priority. 
The major challenges faced by our nation are the major challenges faced 
by the entire globe, and the U.S. cannot effectively pursue solutions 
on its own.
    I look forward to hearing from this very distinguished panel of 
witnesses about their efforts to promote international science and 
technology cooperation as well as their recommendations for how the 
Federal Government might strengthen its efforts through more effective 
partnerships with U.S. scientific organizations and research 
universities.

    Mr. Ehlers. Thank you, Mr. Chairman. First, my apologies 
for being a bit late. We were trying to solve the Fannie Mae 
and Freddie Mac difficulties in the space of 15 minutes. It 
would have been easier to solve Maxwell's equations.
    Today's hearing gives us an opportunity to learn about 
efforts by non-governmental organizations and universities in 
science diplomacy around the world. The federal agencies have a 
responsibility in this area, of course, as we learned in a 
previous hearing, but many of the organizations before us today 
are uniquely positioned to leverage their own strengths at 
building relationships in science and technology cooperation 
that transcend literal and figurative borders. Even in times of 
governmental conflict, relationships built on trust and mutual 
respect will outlast current frictions.
    One of the advantages of being older is to remember, this 
has all happened before; and I remember during the years of the 
Iron Curtain, things of that sort, the two things that 
contributed a great deal to the breaking down of the Iron 
Curtain were exchanges of cultural activities, primarily 
musical, but there were some other cultural activities, too, 
and that broke the ice. But I think what really did make major 
contributions is the interchange of scientists between the 
Soviet Union and the West. Both parties, both the American 
scientists and the Russian scientists, were very anxious to 
work together. They did not regard this as a political 
activity, but the net effect on the government of Russia I 
think was to open the doors even wider because they could learn 
from us and they did.
    This committee knows that the United States will not remain 
globally competitive in science and technology unless we are 
able to work with international partners. Utilizing all avenues 
to strengthen these relationships, public and private, official 
and non-official, will be critical to our success as a nation. 
Raising the profile of science and technology is a consistent 
goal of this committee as well.
    I look forward to hearing from our witnesses today about 
both their successes and challenges. I certainly appreciate 
your attendance at this hearing, and I am sure we will learn a 
great deal from you in the experiences you have had; and I can 
add those to the experiences that I have had working directly 
in my laboratory with foreign scientists whom I still keep in 
touch with.
    Thank you for being here.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Today's hearing is an opportunity to learn about efforts by non-
governmental organizations and universities in science diplomacy around 
the world. The federal agencies have a responsibility in this area, as 
we learned in a previous hearing, but many of the organizations before 
us today are uniquely positioned to leverage their own strengths at 
building relationships in science and technology cooperation that 
transcend literal and figurative borders. Even in times of governmental 
conflict, relationships built on trust and mutual respect will outlast 
current frictions.
    This committee knows that the U.S. will not remain globally 
competitive in science and technology unless we are able to work with 
international partners. Utilizing all avenues to strengthen these 
relationships--public and private, official and non-official will be 
critical to our success as a nation. Raising the profile of science and 
technology is a consistent goal of this committee as well.
    I look forward to hearing from our witnesses today about both their 
successes and challenges. Thank you for your attendance.

    Chairman Baird. Thank you, Dr. Ehlers.
    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman, thank you for hosting another important hearing on 
international science and technology.
    As a Member of both the Subcommittee on Research and Science 
Education and the House Committee on Foreign Affairs, I am particularly 
interested in the issues before us today. I was pleased to attend our 
April hearing on the Federal Government's role in science diplomacy; I 
look forward to learning more about the role of non-governmental 
organizations and universities as coordinating entities of 
international science and technology.
    It is clear that we can build more positive relationships with 
other countries through science. We also understand that the U.S. can 
better affect U.S. national security and economic interests by helping 
to build technological capacity in other countries. I am especially 
interested in how NGOs and universities can help support the Federal 
Government's efforts to improve relations abroad through science 
diplomacy and hope that our witnesses today will spend some time on 
that topic.
    I would like to thank today's witnesses, Dr. Leshner, Dr. Clegg, 
Dr. Wulf, and Dr. Calvin, for coming before the Committee. I look 
forward to hearing their testimony.

    Chairman Baird. At this time, I would like to introduce our 
distinguished witnesses. First, Dr. Alan Leshner is the Chief 
Executive Officer of the American Association for the 
Advancement of Science and executive publisher of the journal, 
Science. Dr. Leshner, I would like to say I received your 
letter. I will be renewing my membership just next week. I 
truly did. It was in my mailbox last night that my membership 
to Science is about to expire, so it is on the way, the check 
is in the mail.
    Dr. Michael Clegg is the Foreign Secretary of the National 
Academy of Sciences. Dr. Clegg is also the Donald Bren 
Professor of Biological Sciences and of ecology and 
evolutionary biology at the University of California at Irvine. 
Dr. Bill Wulf is a Member of the Board of Directors of the U.S. 
Civilian Research and Development Foundation. Dr. Wulf is also 
AT&T professor of computer science at the University of 
Virginia and the immediate past president of the National 
Academy of Engineering. Dr. James Calvin is the Interim Vice 
President for Research at Texas A&M University. Dr. Calvin is 
also professor of statistics at Texas A&M.
    As the witnesses all probably know from experience, our 
spoken testimony is limited to five minutes, but after that, we 
will have a nice positive exchange of ideas and questions, and 
we will start then with Dr. Leshner. Dr. Leshner, thank you for 
being here.

  STATEMENT OF DR. ALAN I. LESHNER, CHIEF EXECUTIVE OFFICER, 
AMERICAN ASSOCIATION FOR THE ADVANCEMENT OF SCIENCE; EXECUTIVE 
                       PUBLISHER, SCIENCE

    Dr. Leshner. Thank you very much, Dr. Baird, Dr. Ehlers. 
First of all, thank you both for your membership. We enjoy your 
participation in our organization. I also wanted to take this 
opportunity to thank you for holding this hearing and for 
giving us an opportunity to speak about the critical role that 
U.S. non-governmental organizations can play in international 
science and technology cooperation.
    Just to be clear, the American Association for the 
Advancement of Science is the world's largest multi-
disciplinary scientific society, and in spite of our name, we 
are in fact international in membership and character. About 20 
percent of our members come from outside the United States.
    Our international activities typically support two key 
objectives. One is helping to build and knit together the 
global science enterprise and secondly promoting what is called 
science diplomacy. We at AAAS believe it is incumbent to our 
mission to build international partnerships that assist other 
nations as they are becoming integrated into the global science 
enterprise. We also help developing nations establish the 
requisite scientific infrastructure so that they may better 
reap the benefits of science for their societies.
    Science diplomacy has as its goal to utilize international 
scientific collaboration to foster communication and 
cooperation among the peoples of diverse nations and to promote 
greater global peace, prosperity, and stability. I would like 
to draw a somewhat subtle but I think important distinction 
between science diplomacy as conducted by governments and 
science diplomacy as often carried out by non-governmental 
organizations.
    Governments often use science and technology as a 
diplomatic or foreign policy tool either to help foster another 
country's development or to increase understanding of U.S. 
values and ways of doing business. As used by non-governmental 
organizations, however, science diplomacy typically has been 
used to maintain communication and cooperation links among the 
citizens of countries when their governmental relationships 
might otherwise be strained or limited. Because we believe 
science diplomacy to be particularly important at this point in 
world history, I am very pleased to announce today that we at 
AAAS are creating a new AAAS Center for Science Diplomacy. The 
Center's over-arching goal is to use science and scientific 
cooperation to promote international understanding and 
prosperity. It will provide a forum for scientists, policy 
analysis, and policy-makers to share information and explore 
collaborative opportunities.
    I also would like to take this occasion to offer some 
suggestions about steps the government might take to better 
position the United States in undertaking international science 
activities.
    First, we need to raise the profile of these issues, and I 
am particularly pleased you are having this hearing. We need to 
raise the profile of these issues to the government, to the 
public, and to the scientific community itself. I do hope that 
other Congressional committees, particularly those dealing with 
foreign relations, will work jointly with you to continue the 
discussion through, for example, additional focused hearings. 
As just one example of a topic of a hearing might be to look at 
the mechanisms the State Department could use to evaluate more 
effectively the science and technology cooperation agreements 
that the United States has with other countries, particularly 
in terms of their follow-on activities and their long-term 
impacts over time.
    We also believe that there are steps that might improve the 
effectiveness of the international programs of U.S. 
governmental research agencies. One concern I have long had is 
that some agencies are limited by statute in what they can do 
because they are not allowed to pay the cost for foreign 
participants. We believe this limitation can impede the ability 
of the programs to achieve their over-arching goals.
    In the realm of science diplomacy, I would encourage 
Congress and the State Department to consider developing 
funding mechanisms that could be used to catalyze the types of 
international science cooperation that are consistent with and 
reinforce U.S. foreign policy objectives.
    And finally, I believe that any efforts to raise the 
profile on effectiveness of international science requires 
strong White House leadership, particularly through a 
presidential science advisor with sufficient rank to work 
across the entire government. The Office of Science and 
Technology Policy must also have an associate director who has 
a clear international mandate if this is going to work. As 
science and technology are ever more embedded in every aspect 
of modern life and in every major global policy issue, it is 
essential that we determine ways and places where science and 
technology cooperation might be better incorporated into 
international relations, not only government to government but 
critically civil society to civil society. Thank you very much.
    [The prepared statement of Dr. Leshner follows:]

                 Prepared Statement of Alan I. Leshner

    Dr. Baird (Chairman), Dr. Ehlers (Ranking Member), Members of the 
Subcommittee, thank you for the opportunity to testify on the critical 
role that U.S. non-governmental organizations play in cultivating, 
promoting, and coordinating international science and technology 
cooperation.
    The American Association for the Advancement of Science (AAAS) is 
the world's largest multi-disciplinary scientific society and publisher 
of the journal, Science. Although we were founded in the United States 
and our name begins with the word ``American,'' that term belies the 
inherent role that we play in the international arena. Approximately 20 
percent of our members are from outside the United States. Moreover, 35 
to 40 percent of the research articles we publish in Science have 
authors located outside of the United States.
    As the largest general scientific society in the world, our 
membership allows us both to draw upon scientists from around the world 
and to access scientists from a very wide range of fields, including 
the natural, physical and social sciences, as well as engineering and 
medical science. This depth and breadth of membership provides a 
massive resource base for action.
    AAAS also has an array of well established and recognized program 
activities in science education, science policy, science communication, 
and science and national security. This diversity allows us to engage 
stakeholders from all regions and sectors required to promote and 
sustain a robust dialogue with the global scientific community.
    Over the years, AAAS has worked hard to broaden its efforts to 
advance science internationally through a range of meetings and 
education exchange activities. AAAS's portfolio of programs, 
publications and members are critical to our efforts to build 
coalitions among other science organizations, non-governmental 
organizations (NGOs) and international governments for addressing a 
wide range of science-society issues and for providing a framework for 
our broader international efforts. As a AAAS Board of Directors' 
resolution states, ``science is often a means to bridge the political 
chasm that divides nations.'' It is a sentiment that is embodied in all 
of AAAS's international interests and is echoed in our Mission ``to 
advance science and serve society throughout the world.''

AAAS International Goals and Missions

    While AAAS's international activities typically involve convening 
special workshops or fostering educational exchanges, our projects can 
best be characterized as supporting two key and mutually reinforcing 
objectives:

        <bullet>  Helping to build and knit together the global science 
        enterprise

        <bullet>  Promoting what is called science diplomacy

Building a Global Science Enterprise
    Science is by definition global in scope and application--it knows 
no borders, is not constrained by geography, and no one country has a 
monopoly on it. Advancements in astronomy, mathematics, biology and 
medicine can find their roots in a rich history of scientific inquiry, 
discovery, and the sharing of knowledge whether from Meso-America, the 
Middle-East, or Europe.
    That said, the United States has invested in a rich portfolio of 
basic and applied research across a diverse spectrum of disciplines, 
established a higher education system that is envied around the world, 
and developed a robust scientific infrastructure. Because of these 
investments, our national science and technology activities are at the 
very forefront of the world's scientific enterprise. These investments 
have also greatly benefited human health and well-being, increased 
standards of living and economic growth, and helped build an informed 
democratic society.
    Because of our international character, we at AAAS believe it is 
both our mission and a great opportunity to build international 
partnerships that assist other nations as they begin to become 
integrated into the global science enterprise. In support of our 
objective ``to serve society,'' we help developing nations establish 
the requisite scientific infrastructure in order that they too may 
better reap the benefits of science as a basis for both their own 
scientific advancement and their economic and social development.
    Two recent examples of such international efforts include:

Women Leaders in Science and Engineering Conference. AAAS worked in 
collaboration with the U.S. Department of State and the Government of 
Kuwait to organize the Women's Leaders in Science and Engineering 
Conference in Kuwait City in 2007. AAAS was able to assemble a 
delegation of U.S. women scientists and engineers along with nearly 200 
female scientists representing the 22 Arab countries. The conference 
allowed international scientific peers to share experiences and lessons 
learned in mentoring, scientific publishing and academic leadership. 
Beyond building practical skills, the conference also provided a 
critical opportunity for networking and building relationships for 
potential collaborations in the future; not only between the U.S. and 
Arab nations, but among the Arab nations present.

Research Integrity Workshop in China. Last September, AAAS conducted a 
workshop in collaboration with senior members of the Chinese scientific 
research and policy community on the subject of research integrity and 
misconduct. The assembled U.S. delegation included journal editors, 
former university presidents, and government officials. Chinese 
delegates include presidents of their universities and leaders of 
government agencies with responsibilities for science and technology. 
Because integrity and trust are so critical to scientific research and 
collaboration, this type of dialogue provided a valuable framework for 
future partnerships and the further development of China's own 
standards for the ethical conduct of scientific research.

Science Diplomacy
    AAAS's second major objective is to act as a catalyst for what is 
called ``science diplomacy.'' The over-arching goal of science 
diplomacy is to use international scientific cooperation to foster 
communication and cooperation among the peoples of diverse nations and 
to promote greater global peace, prosperity and stability. Science 
diplomacy is receiving more and more attention in both the scientific 
and international relations community.
    It might be useful here to draw a somewhat subtle distinction 
between science diplomacy as conducted by governments and science 
diplomacy as carried out by non-governmental organizations. As 
emphasized in a recent Congressional Research Service Report to the 
Congress,\1\ science and technology can be used very effectively by 
government agencies as a diplomatic or foreign policy tool either to 
help foster another country's development or to increase understanding 
of U.S. values and ways of doing business. As used by non-governmental 
organizations, science diplomacy has typically been used to maintain 
communication and cooperation links among the citizens of countries 
when their governmental relationships might otherwise be strained or 
limited.\2\ In addition, non-governmental science diplomacy can help 
build relationships among civil society entities to foster closer 
people to people relationships whether governmental relationships are 
good or strained. From my point of view, governments should be 
interested and supportive of all of these forms of science diplomacy.
---------------------------------------------------------------------------
    \1\ Stine, D.D., ``Science, Technology, and American diplomacy: 
Background and Issues for Congress,'' Congressional Research Service, 
May 22, 2008.
    \2\ Lord K.M. and Turekian V.C., ``Time for a New Era of Science 
Diplomacy,'' Science, February 9, 2007: Vol. 315 no. 5813, pp. 769-770.
---------------------------------------------------------------------------
    Perhaps the most well known example of the success of science 
diplomacy is the scientific exchanges that took place between the U.S. 
and the former Soviet Union throughout the Cold War years. These 
engagements not only helped advance fundamental scientific research, 
but they also were critical for reinforcing trust between two nations 
with tense official relationships. In fact in many instances, it 
provided the only relationship between the two.
    AAAS believes this use of scientific collaboration and 
communication is essential both to the advancement of science and its 
use for the benefit of our global society. For these reasons I am very 
pleased to announce today the creation of a new AAAS Center for Science 
Diplomacy.
    The Center is to be guided by the overarching goal of using science 
and scientific cooperation to promote international understanding and 
prosperity. It approaches this goal by providing a forum for 
scientists, policy analysts and policy-makers through which they can 
share information and explore collaborative opportunities. We are 
particularly interested in identifying opportunities for science 
diplomacy to serve as a catalyst between societies where official 
relations might be limited, and to strengthen existing partnerships in 
science and technology.
    The Center's initial activities will focus on:

        <bullet>  Analyzing current and past domestic and international 
        science diplomacy efforts and deriving lessons learned from 
        those that have succeeded;

        <bullet>  Characterizing the major barriers to successful 
        science diplomacy, such as educational and human resource 
        issues, funding problems, or other policy issues; and

        <bullet>  Leveraging existing and building new partnerships 
        with appropriate stakeholders in both the scientific and the 
        international affairs communities to develop new initiatives 
        and projects and expand ongoing successful ones.

Constraints on AAAS Programs

    AAAS faces the same dilemmas that the U.S. Government faces: how 
best to balance domestic versus international interests, and how best 
to balance short-term versus long-term goals. International cooperation 
takes time to develop and nurture, particularly if it requires 
infrastructure development in one of the cooperating countries. The 
impacts of science diplomacy also can take a long time to be realized, 
since the scientific work must be done and trust must be nurtured over 
time.
    Both collaboration and diplomacy require clear time commitments, 
and we are limited by the ability of our scientific members to take 
time from their own research careers to share their expertise and build 
the necessary relationships. We are fortunate at AAAS, because we can 
draw upon a very large membership of notable scientists that have both 
an eager interest in and the necessary experience of working 
internationally. But that is not always enough. Many large scientific 
organizations, not only those represented here today--CRDF, AAAS, and 
the Academy--assist scientists in some capacity to participate in the 
range of international activities that our organizations sponsor. By 
collaborating and supporting one another, our organizations are able to 
maximize the quality of international endeavors, while minimizing the 
resources required.

Some Potential Government Activities

    I will conclude by identifying some possible steps the government 
might consider in order to better position the United States in 
undertaking international science activities.
    First, we need more efforts like this hearing to raise the profile 
of these issues, to the government, to the public and to the scientific 
community. I hope that other committees, particularly those dealing 
with foreign relations, will work jointly with the Research and Science 
Education Subcommittee to continue the discussion of the importance of 
international scientific cooperation and science diplomacy as tools in 
facilitating international peace, prosperity and security, and build 
upon the efforts that you have already launched.
    An example of a topic that could be explored in a joint hearing 
might be mechanisms to assist the State Department in the development 
of better strategies for evaluating science and technology cooperation 
agreements. Too often the signing of these agreements seems to be an 
end to the process rather than the start of a long-term, strategic 
relationship.
    Moreover, an analysis could be undertaken jointly by the scientific 
community and the international relations community to provide guidance 
for more strategic use of these agreements. This guidance could serve 
not only to help foster international scientific collaborations and 
overall relationship building, but also for addressing the many 
societal challenges we face, such as sustainability, climate change, 
health, etc.
    I also believe there are steps that might improve the effectiveness 
of the international programs of U.S. governmental research agencies. 
One concern is that some agencies may be limited by statute in their 
ability to use federal funds to support international activities 
because they are not allowed to pay the costs for foreign participants. 
Many agencies, of course, do participate in joint international 
projects (e.g., the Space Station), but many still are unable to use 
their budgets to help pay any of the costs for foreign participation. 
Although we do agree with the view that U.S. taxpayer funds should be 
used primarily to support American science, there are instances, such 
as in international science development activities, where this 
limitation impedes the ability of the programs to achieve their goals. 
Specifically, many countries simply cannot afford to support their side 
of the collaboration, and therefore the collaboration is doomed before 
it has begun. It is worth noting that the European Commission 7th 
Framework Program includes a new policy that allows non-European 
institutions to apply for research funding.
    In the realm of science diplomacy, I would encourage Congress and 
the State Department to organize a workshop or roundtable of relevant 
stakeholders from the scientific and international affairs communities 
to look at ongoing efforts and analyze the possibility of establishing 
new funding mechanisms to catalyze the types of international science 
cooperation that are consistent with and reinforce the foreign policy 
objectives of the United States.
    Finally, I believe that any efforts to raise the profile and 
effectiveness of international science require strong White House 
leadership, mostly likely through a Presidential Science Advisor with 
sufficient rank to work across the government, most likely the rank of 
Assistant to the President. Furthermore, the Office of Science and 
Technology Policy must also have an associate director who has a clear 
international mandate and the ability to work with the State Department 
and the National Security Council on issues of international science 
cooperation.
    As science and technology are ever-more imbedded in every aspect of 
modern life and in every major global policy issue, it is essential 
that all relevant parties--the Executive Branch, Congress, scientific 
organizations and their members, international think tanks, foundation 
leaders, and others, work together in a deliberative manner to 
determine ways and places where science and technology cooperation 
might be better incorporated into international relations, not only 
government to government, but critically, civil society to civil 
society.

APPENDIX A

       American Association for the Advancement of Science (AAAS)

    The American Association for the Advancement of Science (AAAS) is 
the world's largest general scientific society, and publisher of the 
journal, Science (www.sciencemag.org). AAAS was founded in 1848, and 
includes 262 affiliated societies and academies of science, serving 10 
million individuals. Science has the largest paid circulation of any 
peer-reviewed general science journal in the world, with an estimated 
total readership of one million. The non-profit AAAS (www.aaas.org) is 
open to all and fulfills its mission to ``advance science and serve 
society'' through initiatives in science education, science policy; 
international programs; and an array of activities designed both to 
increase public understanding and engage the public more with science.

APPENDIX B

                     Biography for Alan I. Leshner

    Alan I. Leshner is Chief Executive Officer of the American 
Association for the Advancement of Science (AAAS) and Executive 
Publisher of its journal, Science. From 1994 to 2001, Dr. Leshner was 
Director of the U.S. National Institute on Drug Abuse at the National 
Institutes of Health (NIH), and from 1988 to 1994 he was Deputy 
Director and Acting Director of the National Institute of Mental 
Health. Prior to that, he spent nine years at the National Science 
Foundation, where he held a variety of senior positions, focusing on 
basic research in the biological, behavioral and social sciences, on 
science policy and on science education. Dr. Leshner began his career 
at Bucknell University, where he was Professor of Psychology. His 
research has focused on the biological bases of behavior, particularly 
the role of hormones in the control of behavior. Dr. Leshner is an 
elected member of the Institute of Medicine of the National Academy of 
Sciences, and an elected fellow of the AAAS, the American Academy of 
Arts and Sciences, and the National Academy of Public Administration. 
He has received numerous awards form both professional and lay groups 
for his national leadership in science, mental illness and mental 
health, substance abuse and addiction, and public engagement with 
science. He received an A.B. degree in Psychology from Franklin and 
Marshall College and M.S. and Ph.D. degrees in Physiological Psychology 
from Rutgers University. He also has been awarded six Honorary Doctor 
of Science degrees.

    Chairman Baird. Thank you, Dr. Leshner. We have been joined 
by Mr. Bilbray from California. Thank you, Mr. Bilbray, for 
being here.
    Dr. Clegg.

STATEMENT OF DR. MICHAEL T. CLEGG, FOREIGN SECRETARY, NATIONAL 
          ACADEMY OF SCIENCES, THE NATIONAL ACADEMIES

    Dr. Clegg. Chairman Baird, Ranking Member Ehlers, and 
distinguished Members of the Subcommittee, thank you for this 
opportunity to discuss international science, technology, and 
health cooperation. I use the abbreviation STH to refer to 
science, technology, and health.
    I am Michael Clegg, Foreign Secretary of the National 
Academy of Sciences. The National Academy of Sciences is a 
merit-based organization that elects outstanding scientists for 
membership and includes the Nation's scientific leadership. The 
U.S. Congress chartered the Academy in 1863 with the explicit 
mission of providing STH advice to the U.S. Government when 
asked.
    Now, I would like to address your questions directly. Why 
did the Academies promote international science cooperation?
    Science is a global activity, was a global activity long 
before the invention of the term globalization because the 
advancement of sciences and the issues and challenges of STH 
programs are predominantly global in nature. Science is 
increasingly trans-border and global in its conception, 
exploration, and application. It is thus in the vital interest 
of the U.S. science community and more broadly U.S. society, to 
maintain close linkages with science communities throughout the 
world.
    Mr. Chairman, we believe that our organization, together 
with its sister academies, the National Academy of Engineering 
in the Institute of Medicine, and Allied Science NGOs like the 
AAAS and the major disciplinary science societies bring unique 
strengths to international science cooperation.
    Let me illustrate this point with three case studies. 
Beginning early in the 1980s, the U.S. National Academy of 
Sciences established a standing committee on international 
security and arms control that worked with scientists in the 
Soviet Union and later in Russia on issues of nuclear 
stability, arms control, and non-proliferation. The initial 
work was aimed at building mutual trust and respect, but 
ultimately this effort matured into a dialogue that was central 
to later arms reduction agreements. Current work with the 
Russian Academy focuses on topics such as the international 
nuclear fuel cycle, international nuclear security 
environments, and beyond cooperation with Russia we convened 
dialogues with India on Indo-U.S. cooperation in international 
security issues and we convened a series of U.S.-China 
engagements on security-related questions.
    Let me now turn to a second example, that is, creating 
bridges of cooperation in areas of conflict. We have an ongoing 
program of cooperation with the Academies of the Middle East 
whose effort included a project on water futures in the Jordan 
Valley conducted jointly with the Israeli and Palestinian 
Academies and with the Higher Council of Jordan that resulted 
in a joint report entitled Water for the Future.
    This work has now matured into a series of joint activities 
that include projects on micro-nutrient deficiencies, water 
resources, renewable energy, pollution, and land degradation 
and science education. An organization has been created to 
implement these programs provisionally named the Association of 
Middle Eastern and U.S. National Academies of Sciences.
    Why are the U.S. Academies seen as effective conveners of 
activities in the Middle East? The principal answer is that the 
U.S. scientific community is held in high esteem by all the 
societies of this conflicted region of the world. This respect 
for U.S. science institutions is based on widespread admiration 
for American accomplishments in STH fields, and it opens doors 
that might otherwise be closed.
    The third example comes from Africa where five years ago we 
initiated a program of institutional development funded by the 
Bill and Melinda Gates Foundation to build a capacity of 
African Science Academies to provide independent evidence-based 
advice to governments and countries with an emphasis on health 
needs. The principal objectives of the initiative are to help 
academies establish sound advisory processes and to foster and 
sustain a relationship between the academy and its government.
    What are the unique strengths of Academies? First, the high 
esteem accorded U.S. science by the rest of the world. 
International polling reveals that attitudes toward U.S. 
science are more positive than towards any other aspect of U.S. 
society. This attitude is especially pronounced in Islamic 
countries.
    Second, the Academies represent the leadership of U.S. 
science and as such represent the human face of U.S. scientific 
achievement. This enables engagement in cooperative work aimed 
at shared goals in all regions of the world.
    Another strength is that the Academies and other non-
governmental organizations such as the AAAS can mobilize the 
U.S. scientific community on urgent issues. And third and 
perhaps most importantly is the ethic of science. The Academies 
represent a scientific approach to problem solving, achieving 
national economic goals, and peaceful competition. A major 
aspect of our international program is to strengthen education 
and training and to empower science communities to be more 
effective in engaging national policy-makers and the public, 
thereby transmitting this problem-solving ethic to other 
societies, especially in the developing world.
    How might the Federal Government take better advantage of 
science and the U.S. scientific community? The U.S. Federal 
Government has great influence in the world owing to the scale 
of the U.S. economy and owing to the widely admired egalitarian 
ideals and aspirations of U.S. society. This provides 
substantial leverage to achieve constructive solutions to 
global problems. Unfortunately, the U.S. has not always made 
full use of these assets.
    The U.S. has allowed its investments in international STH 
to decline. Take investments through USAID as an example. An 
Academies report published in 2006 and undertaken at the 
request of the USAID administrator found that STH competencies 
in USAID have declined substantially. The report makes a series 
of recommendations on how to rebalance the USAID competencies 
in STH to increase the effectiveness of USAID programs. A very 
positive step has been the creation of the Office of Science 
and Technology Advisor for the Secretary of State and the 
naming of that same individual as advisor to the administrator 
of USAID.
    In its May 2007 strategic plan, the Department of State and 
USAID established an important set of realistic STH diplomatic 
strategies. However, these must be seen against inadequate on 
the part of the Department of State or inadequate and declining 
on the part of USAID STH capabilities.
    Many of the leaders of science in other parts of the world 
have had significant experience in U.S. research intuitions as 
students or as research visitors, echoing a point made by 
Chairman Baird. Those with direct knowledge of our country and 
its culture are frequently willing partners for further 
engagement owing to positive feelings about their experiences 
with U.S. science institutions specifically and U.S. society 
generally. Regrettably, the cadre of international scientists 
with direct knowledge of the U.S. is declining. The reasons are 
many, but two are visa policies that inhibit applications to 
U.S. institutions and dramatic erosion of broad-based U.S. 
Government programs for international fellowships.
    The Academies' report cited above found that there has been 
a more than 10-fold decline in the number of USAID financed 
graduate students from developing countries at U.S. 
universities. The report makes the strong recommendation that 
USAID revitalize its investments in human resources based on 
historical experience. It is clear that a modest investment in 
fellowships will bring large returns to future generations.
    Now, I see I am running out of time, so let me just 
summarize the last couple of points. Why is it that many 
federal agencies, USAID, EPA, have science programs with 
international dimensions, but they could benefit from more 
explicit instructions and advice from the Congress on how to 
implement those international responsibilities.
    Let me just then conclude by saying that major 
opportunities to capitalize on U.S. strengths are ignored. To 
ensure a better future, we must make effective use of all of 
our nation's assets. Modest investments in international 
science diplomacy can leverage the enormous asset represented 
by the U.S. STH communities.
    [The prepared statement of Dr. Clegg follows:]

                 Prepared Statement of Michael T. Clegg

    Chairman Baird, Ranking Member Ehlers, and distinguished Members of 
the Subcommittee, thank you for this opportunity to discuss 
international science, technology and health (STH) cooperation. I am 
Michael Clegg, Foreign Secretary of the National Academy of Sciences. 
The National Academy of Sciences, together with the Academy of 
Engineering and the Institute of Medicine, (collectively referred to as 
``The Academies'') are non-governmental organizations whose members are 
elected on the basis of STH leadership.
    The U.S. Congress chartered the National Academy of Sciences in 
1863 with the explicit mission of providing STH advice to the U.S. 
Government when asked. Over the years, as the demand for advice 
expanded and as the U.S. STH community grew in size and complexity, the 
National Research Council (NRC) was established to administer the 
advice function. Later the National Academy of Engineering (NAE) and 
the Institute of Medicine (IOM) were organized under the original 
charter of the National Academy of Sciences. Today's organization 
provides advice to government and the public on a wide variety of 
issues ranging from climate change to bacterial threats, from energy 
futures to emerging diseases, from food security to building effective 
science education programs, from challenges of mega cities to the 
control of weapons of mass destruction.

Why do the National Academies promote international science 
                    cooperation?

    The Academies are engaged with counterpart STH communities around 
the world and have a long history of working with international 
partners in addressing the STH based challenges facing the world. From 
its inception in 1863, the U.S. National Academy of Sciences has 
elected outstanding scientists from outside the United States as 
Foreign Associates, thus recognizing the important contributions of 
foreign scientists to progress in all fields. In today's world, science 
is increasingly trans-border and global in its conception, exploration, 
and application. It is thus in the vital interest of the U.S. science 
community, and more broadly of U.S. society, to maintain close linkages 
with science communities throughout the world. Because our organization 
includes the leadership of science from around the globe, we are 
uniquely positioned to promote international science cooperation and to 
facilitate the provision of scientific evidence to policy-makers on a 
global basis. We are also uniquely positioned to use science as a means 
of building bridges between societies in conflict and as a means of 
facilitating international STH collaborations.
    Science was a global activity long before the invention of the term 
``globalization'' because the issues and challenges of STH programs are 
predominantly global in nature. The Academies often include foreign 
participants in our work, because access to foreign expertise is 
increasingly relevant for all U.S.-based institutions. The inclusion of 
global dimensions improves the quality, depth, and accuracy of our 
studies and reports.

What are the specific goals of the Academies' international programs?

    Based on our experience and capacity as an advisor to our own 
government and society, three broad themes of the Academies' 
international programs, have emerged: They are: (1) improving global 
sustainability and health. (2) Enhancing national and international 
security through increasing pathways of communication. And, (3) 
enhancing human and institutional capital as a route to economic 
development and equity. I will briefly describe several selected 
activities to illustrate the Academies' international programs relevant 
to these themes.

Improving global sustainability and health: The Academies have had a 
long engagement with international partners on issues of sustainability 
and health. One of the major global sustainability issues that demand 
international S&T cooperation is that of water resources. Many parts of 
the world, including parts of the United States, face uncertain water 
futures and it is imperative to develop S&T based solutions for water 
management issues. In this context, the NRC produced a comprehensive 
report, together with the Mexican Academy of Sciences, on the issues 
confronting the Mexico City water supply (Mexico City's Water Supply: 
Improving the Outlook for Sustainability). We have conducted joint 
workshops on ground water resources in the Yucatan, in the Middle East 
and in North Africa and we have produced a multilingual information 
resource on water and health.
    A second issue that is particularly crucial at present is that of 
energy sources and management. The Academies partnered with the Chinese 
Academy of Sciences to produce a forward-looking report on energy 
futures in 2000 (Cooperation in the Energy Futures of China and the 
United States) and we have a continuing series of cooperative efforts 
with the Chinese Academy focused on energy related issues.
    Often the Academies work with partners in regions of conflict 
thereby addressing an important scientific issue while also helping to 
create bridges of cooperation. Thus, for example, we have an ongoing 
program of cooperation with the academies of the Middle East. This 
effort began with cooperation on regional health challenges. It also 
included a project on water futures in the Jordan Valley, conducted 
jointly with the Israeli and Palestinian academies and the Higher 
Council of Jordan that resulted in the joint report entitled Water for 
the Future: The West Bank and Gaza Strip, Israel, and Jordan. This work 
has now matured into a series of joint activities that include projects 
on micro-nutrient deficiencies, water resources, renewable energy, 
pollution and land degradation and science education. An organization 
has been created to implement these programs provisionally named the 
``Association of Middle Eastern and U.S. National Academies of 
Sciences.'' Our Academies also host a meeting for young and mid-career 
scientists from Jordan, Israel, Palestine and the United States aimed 
at sharing research knowledge and framing joint solutions to common 
problems.
    Why are the U.S. Academies seen as effective conveners of 
activities in the Middle East? The principle answer is that the U.S. 
scientific community is held in high esteem by all the societies of 
this conflicted region of the world. This respect for U.S. science 
institutions is based on a widespread admiration for American 
accomplishments in STH fields and it opens doors that might otherwise 
be closed.

Enhancing national and international security through increasing 
pathways of communication: Beginning in the early 1980s, the U.S. 
National Academy of Sciences established a standing committee on 
International Security and Arms Control (CISAC) that worked with 
scientists in the Soviet Union and later in Russia on issues of nuclear 
stability, arms control and non-proliferation. The initial work was 
aimed at building mutual trust and respect, but ultimately this effort 
matured into a dialogue that was central to later arms reduction 
agreements. Current work with the Russian Academy focuses on topics 
such as international nuclear fuel cycle approaches, and the 
international nuclear security environment. Beyond cooperation with 
Russia, we convene dialogues in India on Indo-U.S. cooperation in 
international security issues. We have a series of U.S.-China 
engagements, one of the few sustained bilateral channels of non-
governmental communication on international and regional security 
issues, with an important set of Chinese scientists, nuclear weapons 
experts, and policy analysts. We participate in international fora 
aimed at enhancing biosecurity, both with the international community 
and in a bilateral context with the Chinese Academy of Sciences.

Enhancing human and institutional capital as a route to economic 
development and equity: Over the past 15 years a global network of 
science academies has emerged and become an important venue for 
coordination among science academies around the world. The network, 
known as the InterAcademy Panel on International Issues (IAP), has 
provided a means to coordinate communications and actions with many 
partners simultaneously. The IAP has established programs on water 
futures, science education, biosecurity, natural hazards and disasters, 
and digital access to scientific information. Associations of 
Engineering and Medical Academies are also active, and cooperation 
among networks has been established. A second organization, called the 
InterAcademy Council (IAC) undertakes detailed studies on major global 
issues. An IAC report released on October 2007 analyzed the global 
energy transition, earlier reports address the problem of food security 
in Africa and the importance of women as an under utilized human 
resource in science. These reports are intended for high-level policy-
makers and their dissemination and implementation is being accomplished 
on a regional basis by networks of academies in Africa, the Americas 
and Asia. Our Academy played a crucial role in the creation of these 
networks.
    Five years ago we initiated a program of institutional development, 
funded by the Bill and Melinda Gates Foundation, to build the capacity 
of African science academies to provide independent, evidence-based 
advice to their governments and countries, with an emphasis on health 
needs. The principal objectives of the initiative are to help the 
academies establish sound advisory processes and to foster and sustain 
a relationship between the academy and its government and nation such 
that the academy is regarded as a trusted source of excellent 
scientific advice.
    The initiative supports a variety of activities at the national 
level. We work intensively with the science academies of Nigeria, South 
Africa, and Uganda and assist these academies in hiring and training 
staff, developing infrastructure, and developing and testing different 
models for policy advice. In addition, we are providing more modest 
strategic planning grants to the African Academy of Sciences and to the 
academies of Senegal, Ghana, Kenya and Cameroon, and helping the 
African Academies to work together.
    Partner academies have experimented with convening activities--
forums, symposia, and workshops--to gather stakeholders from 
government, academia, industry, and non-governmental organizations for 
examination, illumination, and discussion of scientific and policy 
issues. A few examples of outputs from this work are:

        <bullet>  An influential consensus report of the Academy of 
        Sciences of South Africa entitled ``HIV/AIDS, TB and Nutrition: 
        Scientific Inquiry into the Nutritional influences on Human 
        Immunity with Special Reference to HIV Infection and Active TB 
        in South Africa'' was released in August 2007. This report 
        addresses a widespread controversy over the Nation's AIDS 
        policies, which have for many years emphasized the importance 
        of good nutrition in the fight against poverty, a study 
        committee of 15 multi-disciplinary experts found that neither 
        food nor food supplements, although important for many other 
        reasons, are alternatives to drug therapy in treating those 
        afflicted with HIV/AIDS.

        <bullet>  A Forum on Evidence-based Policy-making in Nigeria.

        <bullet>  The Uganda National Academy of Sciences has 
        established a Forum on Health and Nutrition and has recently 
        released its first major consensus report on ``Approaches to 
        Assessing and Managing Malaria Vector Resistance to 
        Insecticides.''

        <bullet>  The Uganda National Academy of Sciences also recently 
        hosted a workshop ``Promoting Biosafety and Biosecurity within 
        the Life Sciences.''

        <bullet>  A workshop report of the Academy of Sciences of South 
        Africa on water research and management was released in 2007.

    Complementary to these activities at the national level, we convene 
annual conferences, joint learning sessions, and training activities--
for networking and shared learning on evidence-based policy advice. The 
most recent annual conference, Water and Health in Africa, was held in 
Dakar, Senegal. Government officials from 12 African countries 
participated in the conference. The exchanges and experience from the 
conference discussions resulted in the drafting and signing of the 
Declaration of Dakar: a document that espouses the use of scientific 
evidence in policy-making through a process facilitated by science 
academies.
    In the area of human resource development our Academy is an active 
participant in the IAP global program to improve the quality of science 
education. During the past year, these efforts have included an IAP 
sponsored meeting in London on the professional development of science 
teachers, work with the U.S.-Mexico Foundation for Science (FUMEC) on 
the fourth biennial international conference on science education--
``Science and Well-Being . . . From Amazement to Citizenship''--held in 
Monterrey, Mexico, in November 2007, a leadership development 
conference in Nairobi, Kenya, for teacher leaders from 10 African 
countries and work on the development of an evaluation framework for 
use in countries committed to improving science education.

What are the unique strengths of the Academies in fostering 
                    international science cooperation?

    A unique strength of the National Academies in fostering 
international scientific cooperation is the high esteem accorded U.S. 
science by the rest of the world. International polling reveals that 
attitudes towards U.S. science are more positive than towards any other 
aspect of U.S. society. This attitude is especially pronounced in 
Islamic countries. As noted elsewhere in this testimony, the Academies 
represent the leadership of U.S. science and as such represent the 
human face of U.S. scientific achievement. This enables engagement and 
cooperative work aimed at shared goals in all regions of the world. A 
second strength is that The Academies, and other non-governmental 
science organizations such as the AAAS, can mobilize the U.S. 
scientific community on urgent issues.
    Academies represent a scientific approach to problem-solving, 
achieving national economic goals, and peaceful competition. A major 
aspect of our international program is to strengthen education and 
training, and to empower science communities to be more effective in 
engaging national policy-makers and the public, thereby transmitting 
this problem-solving ethic to other societies, especially in the 
developing world.

What are the limitations of the Academies in fostering international 
                    science cooperation?

    The Academies do not make policy, but rather provide evidence, 
analysis and policy options based on our best understanding of science. 
This means that in most regards, the Academies occupy the role of 
advisors and not implementers. A second limitation is financial. Most 
of our international activities are financed by philanthropic 
foundations or from our own limited endowment pool. The financial base 
for international work is not adequate to the meet the many urgent 
needs and opportunities for constructive engagement.

How do you coordinate your efforts with the Federal Government and with 
                    those other organizations?

    One important component of our interaction with the Federal 
Government is our direct advisory reports to the State Department and 
USAID on the role of STH in foreign policy and development assistance. 
In our own engagement with other countries, we operate within U.S. laws 
and regulations, which involves communication with the Federal 
Government when required. But more importantly, the Federal Government 
is very aware that a successful American engagement with the world must 
involve many private sector and non-governmental players, and we 
receive much encouragement from the government in our international 
activities. One important program of U.S. Embassies abroad is to 
sponsor extended visits to the U.S. for key (often young) leaders from 
host countries, including many with interests in STH, and we meet 
regularly with these foreign visitors. Many U.S. agencies, notably the 
Fogarty International Center at NIH, and the NSF, but also DOE, EPA, 
and others, have active programs for, and interests in, international 
cooperation, and we have valuable interaction with them. With the 
support of the NSF, The National Academies provide U.S. participation 
in the International Council for Science (ICSU), many international 
disciplinary unions, and IIASA.
    Also, our interest in international STH cooperation and in capacity 
building around the world is similar to that of many non-governmental 
organizations in the U.S., notably the AAAS. Since these organizations 
also are led by outstanding American scientists, in many cases 
individuals involved in their leadership are current or past leaders of 
The National Academies, and cooperation is natural.

How might the Federal Government, either as a whole or specific to one 
                    or more agencies, take better advantage of science 
                    and the U.S. scientific community in pursuing its 
                    foreign policy goals and in helping to lead the 
                    world toward global solutions for global challenges 
                    such as water, climate, energy and infectious 
                    diseases?

    The U.S. Federal Government has great influence in the world owing 
to the scale of the U.S. economy, and owing to the widely admired 
egalitarian ideals and aspirations of U.S. society. This provides 
substantial leverage to achieve constructive solutions to global 
problems. Unfortunately, the U.S. has not always made full use of these 
assets. Moreover, the U.S. has allowed its investments in international 
STH to decline. Take investments through the U.S. AID as an example. An 
Academies report published in 2006, and under taken at the request of 
the U.S. AID Administrator, entitled ``The Fundamental Role of Science 
and Technology in International Development: An Imperative for the U.S. 
Agency for International Development'' found that STH competencies in 
USAID have declined substantially. The report made a series of 
recommendations on how to rebalance the USAID competencies in STH to 
increase the effectiveness of USAID programs.
    The creation of the office of Science and Technology Advisor (STAS) 
for the Secretary of State is an important step forward, as is the 
recent appointment of the same individual as Science and Technology 
Advisor to the USAID Administrator. In its May 2007 strategic plan, the 
Department of State and USAID established an important set of realistic 
STH diplomatic strategies, however, these must be seen against 
inadequate (DOS) or inadequate and declining (USAID) STH capabilities. 
As noted in a recent Congressional Research Service report (``Science, 
Technology, and American Diplomacy: Background and Issues for 
Congress''), implementation of these diplomatic strategies will require 
new investments in governmental capabilities, but implementation can 
also be accelerated by the effective use of non-governmental science 
organizations.
    An important opportunity derives from the fact that many of the 
leaders of science in other parts of the world have had a significant 
experience with U.S. research institutions as students or as research 
visitors. To cite one example, 40 percent of the faculty at Sharif 
University, Iran's premier science and technology institution, received 
training in the U.S. During a recent visit to Sharif University, the 
desire for an expanded engagement with all areas of U.S. science was 
repeatedly emphasized to the U.S. visiting delegation. This illustrates 
an experience that is reiterated in all parts of the world--many with 
direct knowledge of our country and its culture are willing partners 
for further engagement, owing to positive feelings about their 
experiences with U.S. science institutions specifically and with U.S. 
society generally.
    Regrettably the cadre of international scientists with direct 
knowledge of the U.S. is declining, because broad based U.S. Government 
programs for international fellowships have eroded greatly over the 
past two decades. The Academies report cited above found that there has 
been a ten-fold decline in the number of USAID-financed graduate 
students from developing countries at U.S. universities. The report 
makes the strong recommendation that USAID revitalize its investments 
in human resources, by bringing its fellowship programs back to the 
scale of the 1980s. Based on historical experience, it is clear that a 
modest investment in fellowships will bring large returns in future 
generations.
    Current visa policies are a further obstacle to scientific 
exchange. It is important to find an appropriate balance between 
legitimate national security concerns and other dimensions of our 
national interest. To quote from the recent CRS report cited above, 
``As other countries increase their investment in higher education and 
R&D, the top science and engineering research and facilities may not be 
in the United States,'' thus broader engagement is clearly in our 
national economic self interest. Moreover, other aspects of our 
national security depend on U.S. international STH engagement, for 
example in responding to global emerging infectious diseases challenges 
such as HIV or SARS or avian flu.
    The National Science Board (NSB) recently issued a report 
(International Science and Engineering Partnerships: A Priority for 
U.S. Foreign Policy and Our Nation's Innovation Enterprise) that 
touches many of the themes listed above, including that the U.S. should 
create a coherent and integrated international science and engineering 
strategy, balance U.S. foreign and R&D policy, and promote intellectual 
exchange. These themes emphasizing the critical role of STH in U.S. 
diplomacy are being reiterated in many fora including these hearings. 
It seems clear that the time is ripe to make fuller use of U.S. STH 
assets in achieving national foreign policy goals.
    Many of the dozens of federal agencies have core goals to which 
carefully chosen international cooperation could provide very valuable 
contributions, and these opportunities are becoming more important as 
scientific strength is more widely distributed, as economies globalize, 
and as challenges (related, for example, to aging populations, to 
water, to global health, to energy and climate change) are increasing 
understood to have commonalities and/or to require common action. But 
in general, federal agencies perceive that the option to support 
international activities is not very clear in their congressional 
guidance and mandate. Thus, it would be very useful for federal 
agencies to have congressional guidance that allows them to support and 
engage in high-value, innovative opportunities for international 
cooperation.
    The points developed above do not speak directly to the question of 
addressing ``global challenges such as water, climate, energy and 
infectious diseases,'' but rather address structural impediments to a 
more effective utilization of U.S. STH assets to achieve national 
goals. We believe that structural reforms must be the fundamental first 
step. Once these are accomplished, it will be relatively 
straightforward to focus U.S. STH strengths, both through direct 
governmental programs and through the effective use of non-governmental 
science organizations, on global challenges of sustainability. As noted 
earlier in this testimony, much is already being done through the 
global network of academies (IAP) or with important bilateral partners 
(e.g., China, the Middle East) to focus on sustainability issues, but 
these efforts are modest compared to the scale of the problems that the 
world faces.
    Thank you again for this opportunity to testify. I would be happy 
to address any questions the Subcommittee might have.

                     Biography for Michael T. Clegg

    Michael T. Clegg received his B.S. and Ph.D. degrees in 
agricultural genetics and genetics respectively at the University of 
California, Davis. In 1972, he joined the faculty of Brown University 
moving from there to the University of Georgia in 1976. In 1984, he 
assumed the position of professor of genetics at the University of 
California, Riverside. He also served as Dean of the College of Natural 
and Agricultural Sciences from 1994 to 2000 and he is Founding Director 
of the Genomics Institute at the University of California, Riverside. 
In July 2004, he joined the faculty of UC-Irvine as the Donald Bren 
Professor of Biological Sciences.
    Clegg's research specialty is population genetics and molecular 
evolution. His early work in population genetics focused on the 
dynamical behavior of linked systems of genes in plant and Drosophila 
populations. During this period, he also contributed to the theoretical 
study of multi-locus systems employing computer simulations together 
with the analysis of mathematical models. Later he helped pioneer the 
comparative analysis of cholorplast DNA variation as a tool for the 
reconstruction of plant phylogenies. His current work is concerned with 
the molecular evolution of genes in the flavonoid biosynthetic pathway, 
the use of coalescent models to study crop plant domestication and the 
application of molecular markers to avocado improvement.
    Clegg was elected to membership in the National Academy of Sciences 
in 1990 and he was elected a fellow of the American Academy of Arts and 
Sciences in 1992. He was elected Foreign Secretary of the National 
Academy of Sciences in 2002 and reelected in 2006. He is an Associate 
Fellow of TWAS (Academy of Sciences of the Developing World) and a 
corresponding member of both the Academia Nacional de Ciencias Exactas 
Fisicas y Naturales and the Academia Nacional de Agronomia y 
Veterinaria of Argentina. He has also served as President of the 
American Genetic Association (1987); President of the International 
Society for Molecular Biology & Evolution (2002); and Chair of the 
Section on Agriculture, Food and Natural Resources of the American 
Association for the Advancement of Science (2003).

    Chairman Baird. Dr. Wulf.

 STATEMENT OF DR. WILLIAM A. WULF, MEMBER, BOARD OF DIRECTORS, 
    U.S. CIVILIAN RESEARCH AND DEVELOPMENT FOUNDATION (CRDF)

    Dr. Wulf. Chairman Baird, Ranking Member Ehlers, and 
distinguished Members of the Subcommittee, I appreciate the 
opportunity to testify today on behalf of the Civilian Research 
and Development Foundation, a.k.a. CRDF. I am fairly new to the 
board of CRDF, having just joined in February. I was quickly 
recruited to become Chairman of the Audit Committee, and so I 
have immersed myself in the organizational, financial, and 
programmatic activities of the organization, an organization I 
must say whose mission I believe very deeply in. Nevertheless, 
let me introduce Cathy Campbell behind me here who is the CEO 
of CRDF and who will bail me out if I get in over my head 
during the Q&A.
    It is especially appropriate for CRDF to be testifying here 
today since it was the brainchild of the former Chairman of 
this committee, the late George Brown. Chairman Brown was an 
articulate advocate for international science and engineering 
research collaboration, and he understood the value that that 
collaboration had as a tool to advance U.S. foreign policy and 
national security.
    In the early '90s when the Soviet Union was disintegrating, 
and engineers and scientists in the former Soviet Union's 
weapons laboratories were not being paid, there was a deep 
concern that those scientists and engineers would offer their 
services to governments that do not have the best interest of 
the United States at heart. Chairman Brown's first charge to 
CRDF was to fund these scientists and engineers to convert 
themselves to civilian research. I am glad to report that that 
particular mission has mostly been accomplished. Chairman 
Brown's truly clever scheme not only kept the weapons designers 
at home but helped enhance their civilian research capacity in 
contributing to the increased stability and prosperity of 
Russia and other members of the former Soviet Union.
    The success of the original CRDF mission underscored 
Chairman Brown's broader vision and what a lot of us believe 
deeply, namely that science and engineering can be a powerful 
tool for fostering better international relations, but there is 
much, much more to do.
    International collaboration of science and engineering is a 
two-fer. Number one, it solves important human problems and 
thus contributes directly to security, prosperity, and health. 
But number two, it also creates those personal relationships 
and trust that engender peace. Based on that philosophy and our 
experience in Russia, the mission of CRDF is the promotion of 
peace and prosperity through international science and 
engineering collaboration.
    Scientists and engineers I believe are an extremely 
valuable but underutilized resource for U.S. foreign policy. As 
Mike just mentioned, according to numerous polls, the single-
most admired aspect of the West among Muslims is our technology 
prowess. We can and we should exploit that admiration.
    CRDF is a unique organization. It is an independent 
501(c)(3) not-for-profit corporation, but it was created by the 
U.S. Congress to advance U.S. foreign affairs and national 
security. We think of CRDF as a ``do-tank,'' as opposed to a 
``think-tank.'' We are implementers of things. We implement 
good ideas to encourage collaboration between U.S. and foreign 
scientists and engineers. Our unique specialty is to quickly 
and efficiently implement international science and technology 
collaborations based on merit and implement it with 
transparency, flexibility, and accountability.
    The success of the original charge from Chairman Brown also 
underscored that just giving out research grants wasn't enough. 
There is a whole infrastructure that supports research and 
increases the probability of collaboration opportunities for 
U.S. scientists. That infrastructure includes things like peer 
review for merit-based awards, the ability to write proposals, 
grant administration, logistics for joint research, and on and 
on. Those are all things that we take for granted in the U.S. 
research system but in fact are not present in many foreign 
systems.
    So CRDF had to create that infrastructure, and so now 
CRDF's activities fall into about 20 programs, certainly 
support for research collaborations. This fall we will be 
announcing a competition for research on climate change. We 
also carry out nonproliferation activities, sort of the 
original mission from Chairman Brown. For example, we have 
recently managed to change what was a bioweapons laboratory in 
Siberia into one that is monitoring for avian flu.
    New program support, for example, logistical support for 
joint research between ourselves and the Russians in the 
Arctic. We do training on things like bioethics, on how to do 
peer review, on research management, and grant administration.
    We have a number of activities related to institution 
building. For example, in most parts of the world, basic 
research is not done in universities as it is in the United 
States. We happen to believe that supporting basic research in 
universities is both good for the research and good for the 
universities, and so we have undertaken activities, 
particularly in Russia, to encourage that activity. We, as 
CRDF, did that at 20 universities. The Russians were so 
enamored and appreciative of that, they have done it by 
themselves in 15 additional ones. We are also focused on 
innovation and knowledge transfer. We have a program called 
Next Steps. We have created technology transfer offices in a 
number of universities.
    As an independent, non-profit, non-governmental 
organization, CRDF has capabilities that complement those of 
government agencies such as NSF. For example, CRDF can move 
quickly and flexibly to respond to opportunities that arise. It 
can fund foreign research scientists and engineers to 
collaborate with their U.S. counterparts. It can seek and 
negotiate cost-sharing programs with foreign governments and 
multi-nationals. It offers potential overseas partners a U.S. 
entity that is not part of the U.S. Government, a property that 
is especially important in those countries that are suspicious 
of the intent of the U.S. Government.
    Examples of all of these are given in the written version 
of my testimony, but as just one example CRDF has secured $43 
million in cost sharing from foreign governments on 675 
projects in 10 different countries.
    Recognizing the value of these complementary capabilities, 
CRDF has been tasked by a number of U.S. Government agencies 
including the Department of State, NSF, DOD, the Department of 
Energy, and the National Institutes of Health. Again, examples 
of the kinds of tasks we do for them are in my written 
testimony, but for example, the Department of State has been 
our principal funder of original work in Russia and the former 
Soviet Union. CRDF also stays in close touch with other NGOs 
such as those here today, but especially the National Academy 
of Sciences and the AAAS. We each have unique strengths to 
contribute, so by working together, we maximize the quality of 
our international activities.
    In summary, I would emphasize four points in my testimony. 
Number one, science and engineering diplomacy can be a powerful 
tool for communication with influential citizens of countries 
that have limited or strained relations with the United States. 
Second, scientists and engineers share a set of values that 
transcend culture. Those shared values facilitate developing 
the trust that is essential to achieving U.S. foreign policy 
and national security objectives. Third, science and 
engineering NGOs such as those here today provide complementary 
capabilities to those of the U.S. Government to further 
effectiveness of science and engineering diplomacy. Finally, 
CRDF's special contribution is as a ``do-tank,'' that is, an 
implementer of science and engineering diplomacy activities and 
programs. We do whatever it takes to make those programs 
effective. Thank you.
    [The prepared statement of Dr. Wulf follows:]
                 Prepared Statement of William A. Wulf

Introduction

    Chairman Baird, Ranking Member Ehlers, and distinguished Members of 
the Subcommittee, thank you for this opportunity to discuss the role of 
non-governmental organizations and universities in international 
science and technology collaboration. I commend the leadership of this 
committee for developing these hearings to highlight the importance of 
engaging some of our most valued resources in the United States, our 
scientists and engineers, to help lead the world toward global 
solutions for global challenges to build peace and prosperity for all. 
The United States--government, non-governmental organizations and 
universities--must do more to engage our scientists and engineers in 
international collaboration.
    I have had the privilege of testifying before this committee on a 
number of occasions, including when I served as President of the 
National Academy of Engineering. It is a great pleasure to return today 
as a member of the Board of the Directors of the U.S. Civilian Research 
& Development Foundation (CRDF) and to share with you the experience 
that CRDF has accumulated over twelve years. During that time, CRDF has 
developed a world-class reputation as an effective and efficient 
implementer of global science and technology collaborations and a solid 
partner with the U.S. Government, private sector, and foreign 
governments and institutions. CRDF's programs have had direct benefits 
to American science objectives, but also to U.S. foreign policy, public 
diplomacy, national security, and competitiveness.
    It is highly fitting that CRDF is testifying before the House 
Science Committee. It was this committee, under the leadership of your 
former Chairman the late Congressman George Brown, that spawned the 
creation of CRDF in 1992. As you know, Chairman Brown was an ardent and 
articulate advocate of developing innovative efforts to build science 
and technology collaboration between the U.S. and other countries. He 
understood the benefits to the U.S. scientific community of high-
quality international collaborations in the basic and applied sciences. 
He understood the value of international science and technology 
cooperation as an important tool to advance U.S. foreign policy and 
national security, specifically at that time with the countries of the 
former Soviet Union (FSU). Finally, he felt strongly about the role of 
NGOs in helping to build these partnerships, thus the establishment of 
CRDF. It is for this reason that CRDF gives an eponymous annual award 
for international science achievement--the George Brown Award for 
International Scientific Cooperation.

CRDF: HISTORY, MISSION, AND PROGRAM ACCOMPLISHMENTS

    CRDF is a unique organization in that it is an independent, non-
governmental organization created by the U.S. Congress to help advance 
U.S. science, foreign affairs and national security priorities. Based 
in Arlington, Va., with three support offices abroad, CRDF has grown to 
include a global staff of over 130 people working with more than 20 
countries. Incorporated as a not-for-profit organization in the 
Commonwealth of Virginia, CRDF is governed by an independent Board of 
Directors whose fourteen members represent a cross section of American 
science, foreign policy, nonproliferation, academic and business 
communities. CRDF also routinely seeks advice from a group of 
preeminent experts, including a Nobel laureate in chemistry, who serve 
on CRDF's Advisory Council. CRDF's staff contributes experience in 
science, international affairs, program and project management, 
finance, grant administration, nonproliferation and policy-making. Many 
of our staff have lived, studied or worked overseas. The scientific 
backgrounds of many of our foreign staff and their experience working 
in the science establishments of their own countries provide invaluable 
capabilities and credibility for successful implementation of CRDF's 
program activities.
    CRDF's unique specialty is its ability to quickly and effectively 
implement international science and technology partnerships selected on 
scientific merit and mutual benefit, and executed with transparency, 
flexibility, and accountability. It partners and works closely with 
scientists and policy-makers in the U.S. Government, other NGOs, 
universities, foundations, and U.S. companies, as well as with key 
foreign governments and partners, successfully supporting international 
collaborative projects valued at over $350 million. These projects 
include more than 3,000 grants that CRDF has made under its own 
programs, and over 1,200 separate projects that CRDF has administered 
on behalf of U.S. Government agencies, universities and businesses 
supporting research and development projects overseas.
    For its own programs, CRDF is extremely effective at leveraging the 
funds it receives with contributions from other sources, and has 
secured $43 million in cost-sharing, primarily from foreign government 
agencies, for 675 projects in ten countries. For example, under its 
Basic Research in Higher Education (BRHE) program in Russia, CRDF has 
obtained cost-sharing from Russian sources, including the Russian 
Federation Ministry of Education and Science, regional and local 
sources, and universities. These sources contributed 50 percent of the 
initial core grants, and then have increased their share, such that 
they now provide 70 percent of all program costs and by 2010, they will 
have assumed 100 percent of the program costs.
    CRDF also works hard to advance the goal of science for diplomacy 
working in partnership with top scientific societies such as our 
colleagues here--AAAS and the NAS--as well as with other organizations 
to focus on how best to help policy-makers better understand the unique 
resources of the U.S. scientific community in fostering and advancing 
U.S. foreign and national security priorities. Finally, given our 
success working with the countries of the former Soviet Union, CRDF has 
expanded its geographic focus across Eurasia, and into the Middle East, 
North Africa, and Asia. The model and methods developed with this 
experience can be successfully applied to many situations.

History
    Sixteen years ago, Science Committee Chairman Brown, on the Floor 
of the House of Representatives, introduced the ``AmeRus Foundation for 
Research and Development Act'' and explained that this bill would 
``establish an independent, endowed foundation which will identify and 
fund cooperative research and development ventures between engineers 
and scientists working in industry, academia, and defense in the United 
States and the former Soviet Union.'' In October 1992, Congress passed 
the FREEDOM Support Act of 1992. Section 511 of that bill authorized 
the creation of the foundation. Three years later, the U.S. Civilian 
Research & Development Foundation was established, with initial funding 
from the Department of Defense through the Nunn-Lugar program and the 
National Science Foundation, to advance U.S. policy and security 
interests through international science collaboration.
    Congressman Brown's support for CRDF was bold. It came at a time of 
significant geopolitical change overseas and an economic downturn at 
home. The break-up of the Soviet empire, and the consequent need to 
secure the weapons of mass destruction and ensure economic stability in 
the successor states, dominated the U.S. foreign policy agenda. 
Congressman Brown recognized an historic opportunity for the United 
States to foster economic stability through support of science and 
technology cooperation. He argued that the scientists and engineers in 
the newly independent states would ``. . . play a key role in 
determining whether the transition to an open and market-driven society 
will succeed . . .''
    Arguing for support of foreign scientists and engineers during a 
period of economic downturn in the United States was not easy. 
Congressman Brown acknowledged the competing demands for budgetary 
resources and argued that the only ``rationale approach'' for this new 
foundation would be based on ``mutual cooperation, collaboration and 
benefit.'' The underlying model involved partnerships between 
scientists and engineers in the former Soviet Union and scientists and 
engineers in the United States. In other words, scientists and 
engineers from the United States would be directly involved in the 
cooperation and stand to benefit from the research, which would be 
selected based on merit and mutual benefit. The challenges and vision 
Congressman Brown articulated in 1992 in the former Soviet Union are as 
relevant today. They also are transportable to other countries and 
regions facing significant challenges that would benefit from more 
proactive international scientific engagement programs and initiatives.

CRDF Mission
    Today, CRDF remains rooted in the basic principles and approaches 
outlined by the Science Committee sixteen years ago. CRDF has taken its 
successful track record in the FSU to implement its mission in other 
countries and regions globally. The CRDF mission is to:

        <bullet>  Provide cooperative research and development (R&D) 
        opportunities that enable scientists and engineers to address 
        critical security, economic, education and other societal needs 
        worldwide.

        <bullet>  Advance peace and prosperity by funding civilian 
        research and development projects that contribute to global 
        nonproliferation objectives.

        <bullet>  Promote the application of science and technology to 
        economic growth through international partnerships and training 
        that foster invention, innovation, entrepreneurship and the 
        commercialization of technology.

        <bullet>  Strengthen university research and education in 
        science and engineering.

Program Components and Accomplishments
    CRDF realizes its mission by designing and implementing a range of 
program activities that jointly meet donor requirements and respond to 
the needs in each country. CRDF currently is administering over twenty 
programs that address each of the four mission areas, as follows:

            Research Collaborations
    CRDF supports and funds high-quality collaborative research and 
development projects in the natural sciences. Research projects 
involving U.S. scientists and foreign counterparts are selected through 
merit-based competitions. CRDF has provided nearly 1,500 grants in 
support of collaborative research projects valued at more than $78 
million and involving approximately 8,000 scientists in 15 countries. 
Targeted research competitions have also been designed to address 
specific areas of priority to funders, including general biomedical 
research, HIV/AIDS research, anti-terrorism research, and this coming 
year, global climate change.
    CRDF's flagship research collaboration program is the Cooperative 
Grants Program (CGP). This program provides up to two years of support 
for joint U.S. and foreign research teams in all areas of basic and 
applied research in the natural sciences. Such collaborations 
strengthen the quality of foreign research to collaborate more 
effectively with U.S. and international partners, provide opportunities 
for junior researchers and female scientists, support the redirection 
of former weapons scientists to civilian research, and establish the 
background of knowledge and technology on which successful industry and 
business partnerships with U.S. institutions may be built. 
Historically, cooperative research grants have averaged about $60,000 
each but amounts can vary by the research program and the local context 
in which the awards are made. Grants to the foreign teams typically 
include individual financial support; equipment, supplies and travel 
support; and institutional support to the grantee institution; U.S. 
team expenses are generally confined to travel, supplies, and graduate 
student stipends.
    Such cooperative research grants are extremely valuable in 
addressing global challenges that can benefit greatly from S&T 
solutions. One example, focused on disaster mitigation and earthquake 
hazard, is a CRDF grant to the Institute of Vulcanology and Seismology 
in Kamchatka, Russia, and Pennsylvania State University. This team 
improved the scientific understanding of the generation, transport, and 
deposition of dangerous explosive volcanic gravity flows of hot ash-gas 
mixtures. Using numeric modeling to simulate directed blast clouds of 
volcanic eruptions and validating the computer results against field 
and lab data has resulted in findings that are invaluable for volcanic 
hazard assessment worldwide.
    Another successful CRDF grant, focused on biodiversity and 
agriculture, involves the Ketshkoveli Institute of Botany in Tbilisi, 
Georgia, and the Missouri Botanical Garden who jointly established the 
first Caucasus Regional Seed Bank in Tbilisi. The seed bank is a living 
reservoir of biodiversity in the Southern Caucasus, one of the United 
Nation's designated world biodiversity hot spots. The seed bank 
includes many wild varieties of crops originally domesticated in the 
Caucasus, and examples of plants used as folk remedies, which are 
candidates for clinical study and use as effective medicines. Some 
species have already been successfully reintroduced into the wild. CRDF 
has literally dozens of such cases where joint research has yielded 
important findings, led to improved partnerships, or opened new areas 
for investigation.

            Nonproliferation and Security
    Since its inception, CRDF has worked to transition former weapons 
of mass destruction (WMD) scientists to civilian research. CRDF has 
been able to engage former weapons researchers in productive civilian 
R&D, converting former related facilities to civilian use, and 
upgrading security at civilian facilities to prevent their misuse. 
Given CRDF's expertise and credibility in helping to transition former 
weapon researchers, the Department of State and Department of Defense 
continue to request CRDF's help in implementing a variety of threat 
reduction programs. Most are focused on biological weapons research and 
conversion of scientists and their associated facilities to civilian 
applications.
    For example, CRDF formed a collaborative project with Vector, a 
former biological defense research facility in Siberia. Highly trained 
American and Russian virologists collaborated to establish this 
critical effort to monitor migratory birds as they flew over 
Novosibirsk, in Siberia. American scientists now famous for their work 
on avian influenza provided the reagents to Vector that allowed the 
typing within 24 hours of the H5N1 outbreak. Today, the World Health 
Organization (WHO) is tapping into the capacity that CRDF built at 
Vector and specialists are considering this a model disease 
surveillance program for emerging threats.
    This Russian flu surveillance project is an example of the type of 
contribution CRDF is offering to the U.S. State Department. A recent 
focus has been support for the State Department's Biosecurity 
Engagement Program (BEP), which reduces the risk of biological threats 
by collaborating with partner governments to develop biosafety and 
pathogen security standards that are consistent with national and 
international guidelines, norms and requirements. What is more, CRDF 
has demonstrated our ability to rapidly respond in difficult 
environments and transition scientists into meaningful civilian 
alternatives.
    CRDF also recently completed a contract with the Defense Threat 
Reduction Agency (DTRA), where CRDF managed three Cooperative 
Biological Research (CBR) projects that engaged scientists from 
Uzbekistan and Kazakhstan in research that resulted in 19 abstracts 
presented at international conferences and two articles in peer-
reviewed journals. The projects helped to build institutional research 
capacity; improve biosafety and biosecurity, and increase knowledge of 
local pathogens. Here is another example of how engagement of this kind 
brings these people and organizations into the broader international 
community with strong linkages to U.S. policy and practice.

            Innovation and the Transition to Knowledge Economies
    CRDF has supported a suite of programs to link foreign researchers 
and entrepreneurs with prospective U.S. industry partners or investors. 
CRDF introduced a pioneering industrial R&D collaborative program that 
matched CRDF's funding of $11 million with $13 million in funding from 
U.S. partner companies, such as 3M and General Electric. CRDF's ``Next 
Steps to Market'' program resulted in four new companies and six 
commercial partnerships with commercial sales throughout Eurasia and 
the United States.
    As an example, a small U.S. small business based in California, 
SciClone Pharmaceuticals, working on compounds that address 
tuberculosis (TB), received funding from CRDF to work with Verta, a St. 
Petersburg, Russia-based institute. Verta's researchers had an 
alternative TB treatment compound that could be taken orally--a more 
globally viable delivery method. Notably, this collaboration provided 
the two dozen former biological-weapons scientists employed by Verta 
with an opportunity to transition their weapons expertise. The 
partnership has brought the world closer to a new TB treatment much 
more quickly than either SciClone or Verta could have done alone, while 
helping to advance U.S. small business.
    More recently, CRDF organized Eurasian Innovation and Investment 
Fora in Cleveland, Ohio and Fairfax, Virginia, to bring together 
promising Eurasian high technology entrepreneurs with potential U.S. 
partners in fields such as alternative energy and information 
technology. One of the participants in the Northern Virginia Forum was 
a Russian technology company, Gravitonus, which subsequently 
established a presence in the U.S. for its cutting-edge technology that 
helps persons with disabilities to use personal computers effectively. 
Company president and founder Dr. Alex Kosik, a spinal cord surgeon in 
Russia, wanted to persuade potential American investors to help him 
produce the Alternative Computer Control System (ACCS)--a special 
assistance device that is placed in a person's mouth and controlled by 
the tongue and biting action. Through partnership with CRDF and the 
Mason Enterprise Center at George Mason University, Gravitonus is now 
able to set up volume production, distribution, sales and marketing 
operations and customer support services in the United States. ``CRDF 
has given us a great opportunity,'' says Kosik. ``We feel that our R&D 
efforts are noticed. We see that CRDF cares. And it really helps us and 
inspires us to move forward.'' Such commercial bridge building 
accelerates the adoption of beneficial technologies in the U.S., 
creates employment, and ultimately, may contribute to export sales from 
the U.S. as such products are developed and perfected.

            Building New S&T Institutions
    CRDF provides institutional support for scientific research 
centers, universities and grant-making organizations in order to 
promote scientific research and to nurture capacity overseas to 
allocate R&D resources on the basis of merit review. CRDF has 
established and funded fifty such institutions in nine countries 
throughout Eurasia, stretching from the Black Sea to the Sea of Okhotsk 
on the Pacific Rim. Four of these organizations--in Armenia, 
Azerbaijan, Georgia and Moldova--help their respective nations gain 
experience in allocating scarce R&D resources based on merit-based 
competitions. Modeled on the U.S. National Science Foundation, these 
grant-making organizations help to build the necessary capacity for 
long-term development of science and for international collaboration. 
They also promote democratic values such as open competition through a 
transparent process employing the principle of merit review.
    CRDF has also provided major state-of-the-art equipment and 
training to 21 competitively selected institutes across eight countries 
in Eurasia (Armenia, Azerbaijan, Georgia, Kazakhstan, Moldova, Russia, 
Ukraine, and Uzbekistan). These shared-use centers are utilized by 
nonprofit research and education institutions as well as the industrial 
research communities within the regions where the equipment is located. 
CRDF committed $6.5 million towards equipment and supplementary grants. 
Eurasian governments and local institutions have provided additional 
support of roughly $1 million to this program.

            Advancing Research Capacity in Higher Education
    With funding from the U.S. private sector and Russia, CRDF 
developed a unique partnership with Russia to introduce a new model for 
integrating research and education in Russian universities. Since 1998, 
the Basic Research and Higher Education (BRHE) program has established 
20 Research and Education Centers at Russian universities to strengthen 
the university research infrastructure, develop new curriculum, engage 
students in research early in their careers, improve external linkages 
and foster the commercialization of technology. In 2005, the Russian 
Ministry of Education and Science validated the BRHE model when it 
independently established 15 new centers patterned after the BRHE 
program. In 2008, independent evaluators called BRHE ``the Right 
Program, at the Right Time and with the Right Process.'' This model has 
recently been duplicated in five other countries, each of which has 
contributed substantial cost-share funding to their joint programs with 
CRDF.

            Specialized Programs
    Over the years CRDF has designed and implemented numerous 
specialized and general training programs to address a wide range of 
global needs, including training in bioethics, peer review and 
scientific proposal writing, English language for scientists, research 
management, and grant administration. CRDF has also employed 
information and communications technologies to facilitate these 
programs. For example, in August 2007 CRDF conducted training for the 
seven original participating institutions of the Iraqi Virtual Science 
Library. CRDF serves as the Secretariat for this program, which allows 
Iraqi academic faculty and students to access current scientific 
literature. Following the training, the number of registered users grew 
by more than 200 new users per month and continues to expand.

            Program Support Services
    CRDF places a high priority on accountability and transparency in 
implementing and managing its grants. CRDF has a dedicated department 
that focuses solely on the effective administration of all aspects of 
award management. The department oversees CRDF's network of 
international banking agreements, in-country support contractors, and 
international travel agencies and equipment vendors. The department 
also oversees all compliance and legal issues associated with project 
implementation from export controls to bioethics to taxation to 
intellectual property. Extensive payment distribution systems provide 
for the efficient and transparent disbursement of project funds and 
equipment to grantees from $100 payments to individual students working 
on projects to multi-million dollar equipment purchases. In addition, 
the department oversees CRDF's project audit functions and conducts 
regular site visits and audits to ensure the highest level of assurance 
that resources are directed to their intended recipients and 
effectively utilized for the intended result.
    The systems developed for the management of CRDF's international 
grants have proven very effective and, as a result, CRDF utilizes these 
mechanisms to support almost 200 U.S. Government, university, for-
profit company and NGO organizations in the financial and 
administrative management of their own international projects and 
activities. A list of customers under GAP Services is attached at 
Appendix A.

ROLE OF CRDF AS AN NGO AND COORDINATION WITH THE U.S. GOVERNMENT

    The Congressional sponsors of CRDF believed strongly in the 
potential contribution of a non-governmental mission to international 
science and technology cooperation. They cited the successful 
precedents of the three non-governmental foundations that the United 
States and Israel established in the mid-1970: the Binational 
Industrial Research and Development (BIRD) Foundation; the Binational 
Agricultural Research and Development (BARD) Foundation; and the 
Binational Science Foundation (BSF). They were aware of previous 
efforts in the late 1970s to develop a major NGO to advance global 
scientific collaboration to advance development that was never 
realized. Finally they understood that there are times when an 
independent NGO--working in partnership with the U.S. Government--can 
help implement programs more effectively. Over the years as CRDF's 
reputation has grown, it has received more calls for help from the U.S. 
Government. Its strengths--as well as its limitations--as an NGO are 
listed below:

Strengths as an NGO
    As an NGO, CRDF has been able to operate quickly and flexibly in 
responding to emerging opportunities. For example, just a month after 
the events of 9/11, CRDF launched an initiative to engage U.S. and 
Eurasian scientists in collaborative research to reduce the effects of 
terrorist acts on civilian populations. CRDF supported a series of 11 
workshops where hundreds of scientists gathered to focus on research to 
detect, protect, and treat in the case of a terrorist event. Some $1.5 
million was committed to follow on grants to these teams of scientists, 
with funding from several U.S. government agencies.
    In 2004, while the U.S. Government was developing plans for science 
initiatives with Iraq, CRDF organized an orientation visit to 
Washington, DC, for a group of six Iraqi scientists. CRDF introduced 
them to scientists in U.S. Government agencies, local universities and 
businesses. Many of those scientists have subsequently participated in 
research projects with U.S. counterparts.
    As an NGO, CRDF can seek and negotiate cost-shared programs with 
foreign counterparts. As mentioned earlier, CRDF has secured $43 
million, primarily from foreign government agencies, for 675 projects 
in ten countries. These cost-shares expand the scope and impact of CRDF 
programs in-country and set the stage to transition from cost-sharing 
to exclusive host-country funding.
    CRDF is able to leverage resources of multiple organizations as 
well. For example, CRDF's Cooperative Grants Program leverages funding 
from the State Department, National Science Foundation and National 
Institutes of Health, to support collaborative research projects 
between U.S. scientists and their counterparts in Eurasia. CRDF's 
premier university initiative, the Basic Research and Higher Education 
Program, leverages funding from the John D. and Catherine T. MacArthur 
Foundation, the Carnegie Corporation of New York, the Russian Ministry 
of Education and Science and regional governments in Russia to support 
twenty Research and Education Centers at Russian universities.
    Another strength of CRDF is its ability to quickly engage 
specialized expertise for program design and implementation. CRDF has 
developed a network of more than 40,000 scientists and engineers who 
conduct merit review of proposals submitted to CRDF; participate in 
review panels or site visit teams; advise CRDF on program design and 
implementation; and provide specialized expertise. CRDF works closely 
with key U.S. science and engineering organizations and societies to 
ensure that we tap the best expertise for existing or new programs. We 
have also partnered with the Arab Science and Technology Foundation in 
the United Arab Emirates (UAE) on workshops and other programs to 
promote science collaboration between U.S. and Arab scientists. CRDF 
has formed partnerships with the King Abdullah University of Science 
and Technology (KAUST) and the Qatar National Research Foundation 
(QNRF) to provide CRDF's expertise in implementing science and 
technology cooperative programs, building organizational capacity in 
information technology, database administration, peer review and grant 
administration support.
    As an NGO with on-the-ground support offices in Russia, Ukraine, 
Kazakhstan, and soon in Azerbaijan, CRDF has the staff expertise and 
resources to offer flexible solutions to meet customer needs. For 
example, our Russian office staff has provided support to the National 
Science Foundation's Arctic programs division in the implementation of 
their programs with the Russian Federation, working with Russian 
government agencies and research institutes to coordinate work in the 
Arctic region. Through our GAP program, CRDF has assisted over 200 
organizations who work in the FSU to implement more than 1,200 projects 
by providing flexible and accountable project management services.
    As an NGO, CRDF offers potential partners overseas a U.S. 
counterpart that is not part of the U.S. Government. Because CRDF is a 
non-governmental, non-profit organization, it is often seen as a 
neutral partner in developing program initiatives between the US and 
its foreign counterparts. CRDF has been able to fulfill this role while 
maintaining U.S. policy objectives. Moreover, CRDF can invest the time 
and resources needed to build the relationships and trust that are so 
necessary to engaging foreign scientific communities in new programs of 
cooperation with the United States.
    As an NGO, CRDF's mission is broad. This breadth enables CRDF to 
offer a wide range of program implementation strategies for multiple 
customers. As of July 1, 2008, CRDF is implementing over 20 programs 
for more than thirteen sponsors and customers. In addition, our GAP 
program currently is implementing 350 projects for over 100 customers. 
Other organizations, including U.S. Government agencies and non-
governmental entities, are supporting activities related to one or more 
of CRDF mission objectives. However, CRDF is unique in its combination 
of mission objectives and capability to implement across a wide range 
of issues and countries.

Limitations as an NGO
    While CRDF has achieved remarkable success in its twelve years of 
operation, its forward progress is constrained by the absence of multi-
year funding. CRDF was originally envisaged as an endowed foundation 
that would operate similar to the foundations that the U.S. established 
with Israel. That endowment did not materialize, and hence, CRDF must 
constantly seek new funding for all of its program activities and to 
maintain its core staff capabilities. In almost all cases, that funding 
is secured on an annual basis, which limits the ability of CRDF to 
develop long-term program strategies with partners overseas. CRDF also 
needs to retain some flexibility in designing its programs as needs on 
the ground can evolve over time and out-pace the ability of 
governmental agencies to respond in a timely way.

Coordination with the USG
    CRDF coordinates its work closely with the United States 
Government, which has been the primary source of funds for CRDF program 
activities. For example, in 2007 federal expenditures accounted for 
over $18 million, out of almost $25 million, in CRDF activities. The 
federal expenditures include funds from the Departments of State, 
Defense, and Energy, the National Science Foundation and the National 
Institutes of Health. Overall, the largest single source of funds has 
been the State Department's FREEDOM Support Act funds, which have 
declined from a high of $15 million in 2002 to $5.7 million in fiscal 
year 2007, with further reductions expected in fiscal year 2008.
    As CRDF's primary funder, the Department of State continues to 
request CRDF help in implementing its programs. CRDF works closely with 
a number of the Department's geographic and functional bureaus to 
advance international science collaborations on behalf of the 
Department. However, the significant decrease in FSA funding has 
significantly impacted the type of programming and impact that CRDF can 
exert. The decline in FSA funding reduces CRDF's ability to respond 
quickly to new opportunities in priority countries and to take 
advantage of cost-sharing offers from foreign partners. CRDF has 
annually been included in the House and Senate foreign operations 
appropriations report, and in recent years the Congress has urged the 
Department of State to expand funding for CRDF from other accounts 
beyond the FSA.
    CRDF works with a number of other U.S. Government agencies, helping 
them advance their global research interests. For example, with funding 
from NSF supplemented by other agencies, CRDF has supported over 1,000 
collaborative research projects between U.S. scientists and 
counterparts in Eurasia and Eastern Europe. The projects cover multiple 
disciplines, such as biology, chemistry, physics, engineering, math, 
IT, and geology and are selected based on merit review. Additionally, 
on behalf of NSF, CRDF manages a small number of bilateral programs 
primarily in Russia and Eurasia which include Arctic area research, 
fellowship and exchange programs, and support for international 
conferences in various scientific disciplines. NSF-funded CRDF programs 
have benefited from annual cost-sharing from the governments of Russia 
and Ukraine.
    With funding from NIH, CRDF has engaged scientists around world in 
cooperative research projects with U.S. partners to investigate high-
priority topics in global health, including: disease prevention, 
treatment, and surveillance; innovative cancer diagnostic methods; and 
new approaches to HIV/AIDS, tuberculosis, and hepatitis C. In 
particular, CRDF manages several international programs in public 
health, primarily in infectious disease prevention and monitoring, 
centers of excellence for public health education, and in research on 
HIV/AIDS. CRDF's support for HIV/AIDS research entered a new phase in 
2008 with the HIV/AIDS Research Public Health Centers of Excellence 
program. This program, jointly funded by the Russian Ministry of 
Education and Science, funds two U.S.-Russian interdisciplinary 
consortia to apply international best practices to HIV/AIDS research in 
Russia. The centers are focusing on pressing research needs in Russia, 
TB co-infection and behavioral factors in HIV transmission, and 
providing a model for future interdisciplinary public health research 
centers in HIV and other global health threats, such as tuberculosis, 
heart disease, and substance abuse.
    For the Department of Energy, CRDF has provided logistical and 
financial support for a number of engagement programs between DOE and 
its international counterparts, primarily in Russia. Finally, for DOD 
through the Defense Threat Reduction Agency (DTRA), CRDF has managed 
science engagement programs with a number of institutes in Eurasian 
countries that have had biological weapons capabilities or histories, 
supervising their transition to civilian applications, research, and 
commercialization.
    CRDF routinely submits proposals for work to U.S. Government 
agencies and if selected, operate under a federal grant or contract. 
CRDF complies with all applicable rules and regulations as a grantee/
contractor and reports regularly to the sponsoring agency on the 
progress of the work. CRDF maintains regular contact with the policy-
making community and Congress to keep them updated on the progress of 
CRDF work and new opportunities that may be of interest to government 
sponsors.

THE FUTURE: HOW CAN THE USG WORK WITH NGOS AND THE U.S. SCIENTIFIC 
                    COMMUNITY TO PURSUE FOREIGN POLICY GOALS AND GLOBAL 
                    CHALLENGES?

The Time is Right
    Never has CRDF's vision, ``international peace and prosperity 
through international science collaboration,'' been more relevant than 
it is today. The U.S. science and technology enterprise is the best in 
the world. U.S. leadership in science and technology is recognized 
globally. According to the Gallup World Poll conducted over six years 
and which covers 40 majority Muslim countries and 90 percent of the 
global Muslim population, the single most admired aspect of the West 
among Muslims around the world is technology. When asked what the West 
can do to improve relations with the Muslim world, the most frequent 
response after the resounding call for the West to respect Islam, is 
for the Western nations to help Muslim countries with capacity building 
and technology transfer.\1\
---------------------------------------------------------------------------
    \1\ Statement by Dalia Mogahed, Senior Analyst at Gallup and 
Executive Director of the Gallup Center for Muslim Studies; author of 
the book ``Who Speaks for Islam?: What a Billion Muslims Really Think'' 
(Gallup Press, March 2008).
---------------------------------------------------------------------------
    American scientists and engineers represent an incredibly valuable, 
but underutilized, resource in U.S. foreign policy. With adequate 
support and incentives, U.S. scientists and engineers can reach out to 
societies around the world and apply ``smart power'' through 
international science and technology cooperation. Secretary of Defense 
Robert Gates and others have argued for more effective use of U.S. 
``smart power'' to invest ``in the global good--providing services and 
policies that people and governments want but cannot attain in the 
absence of American leadership.'' \2\ We need to engage our leaders to 
utilize our scientists and engineers to reach out to counterparts 
around the world and engage in long-term science and technology 
projects that find collaborative solutions to common problems in 
health, environment, energy and agriculture.
---------------------------------------------------------------------------
    \2\ Center for Strategic and International Studies (CSIS), 
``Implementing Smart Power: Setting an Agenda for National Security 
Reform,'' a statement by Richard L. Armitage, President, Armitage 
International, and Dr. Joseph S. Nye, Jr., Distinguished Service 
Professor, Kennedy School of Government, Harvard University, before the 
Senate Foreign Relations Committee, April 24, 2008.
---------------------------------------------------------------------------
    Today's most vexing problems are global in nature and are not 
limited to the geographic boundaries of any one country. So, too, the 
capability to solve technical problems resides around the world. The 
best approach to solving global problems is to involve global teams of 
scientists and engineers. By contributing to the solution of these 
problems, the U.S. engenders gratitude and trust. By collaborating in 
their solution, the U.S. builds capacity and hence leverages our 
efforts. Scientists and engineers tend to share values that transcend 
cultures, thus facilitating more rapid trust relations. This is very 
important as a diplomatic tool--to reach out to global partners in ways 
that diplomats cannot. In many developing countries, the technical 
leadership is tied into the political leadership more so than in 
developed countries. This too can be an important avenue to encourage 
sound political decision-making.

The U.S. Government's Role
    The U.S. Government must significantly expand its support for 
international science and technology cooperation. It should begin by 
articulating a clear policy statement endorsing international 
cooperation as a key component of U.S. foreign policy and assistance, 
national and economic security, and a priority for U.S. research and 
development agencies. The White House should increase attention to 
international science and technology cooperation and reestablish a 
high-level, interagency committee to coordinate U.S. Government 
efforts.
    The U.S. Government should promote an environment that is conducive 
to international science and technology by routinely reviewing policies 
and procedures that affect the implementation of international science 
and technology cooperation. The appropriate U.S. Government agencies 
should work to reduce barriers to cooperation, such as the difficulty 
of obtaining visas.
    The U.S. Government should increase the resources allocated to 
international science collaboration. For example, international program 
offices at federal R&D agencies should be allocated additional 
resources to explore and expand international cooperation. Seed funding 
should be made available for ``start-up'' activities under the 
intergovernmental science and technology agreements that the U.S. signs 
with foreign counterparts. These agreements are often signed with great 
fanfare but do not live up to expectations, particularly for our 
foreign counterparts, because there generally is no funding to pursue 
concrete activities. U.S. foreign assistance programs should increase 
their attention to science and technology for capacity building 
overseas.
    The U.S. Government should increase its partnerships with non-
governmental organizations to initiate and implement international 
science and technology cooperation. NGOs offer the speed, flexibility 
and responsiveness needed to pursue new opportunities and to execute 
constantly evolving policy and programmatic priorities of U.S. 
Government agencies. NGOs have the ability to get ``on-the-ground'' 
quickly and develop the relationships and trust needed to initiate new 
partnerships, often in difficult circumstances. At the same time, NGOs 
are able to work with transparency, openness and accountability 
overseas, and to foster the same in our partners.

Catalyzing a New Global Initiative
    Most importantly, the U.S. Government should launch a strategic, 
new global initiative to catalyze, broker, amplify and scale up science 
and technology cooperation for the benefit of the United States and its 
partners around the world. This new initiative should be a global 
public-private partnership with the U.S. taking the lead in challenging 
other governments and private donors to match the U.S. contribution. 
Patterned after other public-private partnerships, such as the Global 
Fund to Fight AIDS, Tuberculosis and Malaria, this new global science 
initiative would engage scientists internationally to encourage 
critical scientific and technical advances that address global 
challenges including infectious disease, food security, energy 
alternatives and vanishing ecosystems; to reach young scientists and 
support a robust research and educational infrastructure; and to build 
mutually beneficial economic partnerships. It would facilitate greatly 
expanded international science and technology cooperation as well as 
enhance institutional capacity in the developing world. Nations with a 
strong, stable science and technology base are better participants in 
the global economy, develop indigenous solutions to national problems, 
and contribute to ongoing international collaborative efforts.

CRDF as a Global Partner for the Future
    With over a decade of strong support from both public and private 
donors, CRDF has developed a potent and unique capability to implement 
international science and technology cooperation. CRDF's many successes 
validate the vision that the leadership of this Science Committee 
articulated in 1992. CRDF has demonstrated that Congressman Brown was 
right when he argued for the creation of a non-governmental 
organization to help achieve U.S. foreign and national security policy 
objectives through international science and technology cooperation 
that benefits both the United States and its partners overseas.
    The global environment in which CRDF operates has changed 
dramatically since CRDF began in 1992. New opportunities to collaborate 
in science and technology are emerging rapidly as countries focus 
attention on building knowledge-based societies. The demand for 
science-based solutions to complex global challenges in health, energy, 
agriculture, economic well-being and security is high. Meeting such 
challenges requires international science and technology collaboration 
that brings together the best minds and innovative approaches to find 
mutually beneficial solutions. It is in the U.S. interest to encourage 
such collaboration. CRDF also sees many opportunities to continue its 
record of success in other regions where science cooperation can make a 
positive contribution to U.S. policy, especially in the Middle East and 
in South Asia.
    CRDF will continue to work in partnership with the U.S. Government, 
foreign partners and other NGOs to develop international science and 
technology cooperation that builds on CRDF proven models and addresses 
high priority opportunities or needs. For example, through its higher 
education and research initiative, CRDF will work to establish and 
integrate scientific research more effectively into university programs 
overseas and to develop opportunities to engage foreign students and 
young researchers--the next generation of scientists--into productive, 
long-lasting collaborations with the U.S. partners.
    CRDF will continue to develop program initiatives to engage 
scientists and engineers in the Middle East and other Muslim countries 
in collaborations that generate new knowledge, apply research to 
address priority needs in health, agriculture, water and energy; and 
build capacity for education, research and economic development through 
science and technology. A high priority will be collaborative research 
programs that encourage U.S. scientists to identify and partner with 
foreign scientists on mutually beneficial, competitively selected 
projects. Together, these joint research teams can address common 
problems while developing long-lasting relationships of trust and 
collaboration.
    CRDF will continue to work with new science and technology 
institutions overseas to develop mechanisms and procedures that promote 
merit-based selection of projects and opportunities for collaboration 
with U.S. scientists. Building on its successful experience managing 
the Iraqi Virtual Science Library, CRDF will work with others to help 
bring this type of digital library resource to other countries. A 
number of countries have expressed a desire for CRDF's assistance to 
partner with them on creating and maintaining access to scientific 
literature, research databases, and other similar tools. These 
activities stimulate collaborative research, allow access by scientists 
to a wider community of scholars, and ultimately contribute to a more 
open flow of information. CRDF sees a major opportunity for positive 
public diplomacy in stimulating and funding such programs to broaden 
access to scientific knowledge and norms as practiced in the U.S. 
research community.
    CRDF will continue to pursue collaborative approaches to address 
global energy issues. This fall, CRDF will begin a new initiative in 
climate change research. With cost-shares from CRDF's international 
partners, CRDF will support international teams researching ways to 
measure and reduce the impacts of this global problem from a variety of 
scientific disciplines, including biology, chemistry, physics, geology, 
and engineering. This builds upon CRDF's track record of supporting 
international collaborative projects that have studied solar energy, 
improved the potential and marketability of fuel cells, and explored 
sustainable energy. U.S. industry partners on these projects have 
included Shell, ConocoPhillips and GE. As an example, CRDF supported 
researchers from Armenia and the California Department of Water 
Resources to evaluate the energy capacity and wood yield potential of 
fast-growing poplar trees as a promising source of power and as a 
remedy for some of Armenia's heavily deforested regions.
    CRDF's work in addressing energy-related issues was noted by the 
Ranking Member of the Senate Energy and Natural Resources Committee, 
Senator Pete Domenici, in his remarks regarding CRDF's ten year 
anniversary: ``The Civilian Research & Development Foundation has 
amassed a very solid record of helping the U.S. Government achieve its 
foreign and national security policy agendas. By using science 
collaborations to advance peace and sustainable prosperity, we can best 
address the complex energy challenges that we face globally by uniting 
the talents of all the world's brightest minds. CRDF is uniquely 
positioned to help enable these international collaborations that will 
benefit all of us in the energy field and elsewhere.''
    In conclusion, CRDF's unique expertise and track record have been 
tested with great success in the countries of the former Soviet Union. 
They are now being expanded slowly into other countries and regions. 
CRDF is working hard to help make the case for expanded partnerships to 
advance science for diplomacy and security. In partnership with AAAS, 
the NAS, Brookings, and others, CRDF is working hard to help raise 
awareness regarding science for diplomacy. We commend this committee 
for taking the lead here on Capitol Hill and we look forward to working 
with you and our partners here and in the government to make this dream 
that George Brown had a global reality.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Biography for William A. Wulf

Education:

B.S.--Engineering Physics, University of Illinois, 1961

M.S.--Electrical Engineering, University of Illinois, 1963

Ph.D.--Computer Science, University of Virginia, 1968

Descriptive Biography:

    Dr. Wulf is a University Professor and the AT&T Professor of 
Engineering and Applied Science at the University of Virginia. Among 
his activities at the University were a complete revision of the 
undergraduate Computer Science curriculum, research on computer 
architecture and computer security, and an effort to assist humanities 
scholars exploit information technology.
    Dr. Wulf was on leave from the University from mid 1996 to mid 2007 
to serve as President of the National Academy of Engineering. Together 
with the National Academy of Sciences, the NAE operates under a 
congressional charter and presidential executive orders that call on it 
to provide advice to the government on issues of science and 
engineering.
    In 1988-90 Dr. Wulf was on leave from the University to be 
Assistant Director of the National Science Foundation (NSF) where he 
headed the Directorate for Computer and Information Science and 
Engineering (CISE). CISE was responsible for computer science and 
engineering research as well as for operating the National 
Supercomputer Centers and NSFNET (the precursor to today's Internet). 
While at NSF, Dr. Wulf was deeply involved in the development of the 
High Performance Computing and Communication Initiative and in the 
formative discussions of the National Information Infrastructure.
    Prior to joining Virginia, Dr. Wulf founded Tartan Laboratories, a 
software company, and served as its Chairman and Chief Executive 
Officer. Before returning to academe, Dr. Wulf grew the company to 
about a hundred employees. Tartan developed and marketed optimizing 
compilers, notably for Ada. Tartan was sold to Texas Instruments in 
1995.
    The technical basis for Tartan was research by Dr. Wulf while he 
was a Professor of Computer Science at Carnegie-Mellon University, 
where he was Acting Head of the Department from 1978-1979. At Carnegie-
Mellon Dr. Wulf's research spanned programming systems and computer 
architecture; specific research activities included: the design and 
implementation of a systems-implementation language (Bliss), 
architectural design of the DEC PDP-11, the design and construction of 
a 16 processor multiprocessor and its operating system, a new approach 
to computer security, and development of a technology for the 
construction of high quality optimizing compilers. Dr. Wulf also 
actively participated in the development of Ada, the common DOD 
programming language for embedded computer applications.
    While at Carnegie-Mellon and Tartan, Dr. Wulf was active in the 
``high tech'' community in Pittsburgh. He helped found the Pittsburgh 
High Technology Council and served as Vice President and Director from 
its creation. He also helped found the CEO Network, the CEO Venture 
Fund, and served as an advisor to the Western Pennsylvania Advanced 
Technology Center. In 1983 he was awarded the Enterprise ``Man of the 
Year'' Award for these and other activities.

Consulting:

    Stellar Computer, Pyramid Computer, Prime Computer, Westinghouse 
Research and Development, United Nations Development Program, IBM, 
Digital Equipment Corporation, Intel Corporation, Intermetrics Inc., 
North Electric Company, Cii Honeywell-Bull, Computer Networks Inc., 
NCR, Univac, and others.

Administrative Experience:

President, National Academy of Engineering, 1996-2007.

Assistant Director, National Science Foundation, 1988-90.

Chairman & CEO, Tartan Laboratories Incorporated, 1981-1987.

Acting Head, Department of Computer Science, Carnegie-Mellon 
        University, 1978-1979.

Selected Professional Activities:

Member, National Academy of Engineering

Member, American Philosophical Society

Fellow, American Academy of Arts and Sciences

Foreign Fellow, Australian Academy of Science, Technology and 
        Engineering

Foreign Member, Russian Academy of Sciences

Foreign Member of the Chinese Academy of Engineering

Foreign Member, Engineering Academy of Japan

Honorary Member, Academy of Technical Sciences of Romania

Corresponding Member, Royal Spanish Academy of Engineering

Member, Academy Bibliotheca Alexandrina (Library of Alexandria)

Foreign Corresponding Member, National Academy of Engineering of 
        Venezuela

D. Sc. (Hon.) Carnegie Mellon University

D. Sc. (Hon) U. Connecticut

D. Engr. (Hon) Colorado School of Mines

D. Engr. (Hon) Polytechnic University

D. Engr. (Hon) Missouri University of Science and Technology

Distinguished Service Medal, U. Pennsylvania

Kenneth Andrew Roe Award, ASEE

Ralph Coats Roe Award, ASME

Distinguished Career in Science Award, Washington Academy of Sciences

Associate Editor, Acta Informatica

Reviewing Editor, Science, 1992-96

Chairman, Computer Science and Telecommunications Board, National 
        Research Council, 1991-6

Member, Council of the ACM, 1991-98

Director, Computing Research Association, 1988-92

Member, Board of Visitors, Software Engineering Institute, 1987-93

Editorial Board, Addison-Wesley/SEI Series on Software Engineering

Member, Air Force Science Advisory Board, 1989-91

Director, Baker Engineers (a public Engineering firm), 1984-97

Director, Charles Starke Draper Laboratory, 1998-2006

Director, National Action Council for Minorities in Engineering, 1997-
        2007

Director, Anita Borg Institute for Women and Technology, 1999-(Chair 
        beginning 7/1/08)

Trustee, Library of Alexandria (Egypt), 2001-2007

Member, Eta Kappa Nu (EE Honary Society)

Member, NSF Engineering Advisory Committee, 2007-present

Member, Purdue School of Engineering Advisory Board, 2007-present

Vice-Chair, Olin College President's Advisory Committee, 2007-present

Director, Civilian Research and Development Foundation, 2008-present

Director, MASDR Institute (Abu Dhabi), 2007-present

Professional Society Memberships:

Association for Computing Machinery, ACM (Fellow)

Institute of Electrical and Electronic Engineers, IEEE (Fellow)

American Association for the Advancement of Science, AAAS (Fellow)

American Society of Mechanical Engineers

Sigma-Xi

Association for Women in Science (Fellow)

International Engineering Council (Fellow)

Patents:

U.S. Patent No. 4,819,155 ``Apparatus for Reading and Writing From 
        Memory Streams of Data While Concurrently Executing a Plurality 
        of Data Processing Operations''

U.S. Patent No. 6,154,826 ``Method and Device for Maximizing Memory 
        System Bandwidth by Accessing Data in an Dynamically Determined 
        Order''

Selected Publications:

Books

Wulf, W.A., Levin, R., and Harbison, S.P., ``Hydra/C.mmp: An 
        Experimental Computer System.'' McGraw-Hill Publishing Co., 
        1980.

Wulf, W.A., Shaw, M., Hilfinger, P.M., and Flon, L., ``Fundamental 
        Structures of Computer Science.'' Addison-Wesley, 1980.

Wulf, W.A., Johnson, R., Weinstock, C., Hobbs, S., and Geschke, C., 
        ``The Design of an Optimizing Compiler.'' American Elsevier 
        Publishing Company, Inc., New York, 1975.

Journal and Conference Publications

Bell, C. Gordon, Cady, R., McFarland, H., Delagi, B., O'Laughlin, J., 
        Noonan, R., and Wulf, W.A., ``A New Architecture for Mini-
        Computers--The DEC PDP-11,'' AFIPS Conference Proceedings, 
        AFIPS, pp 657-675, 1970.

Wulf, W.A., Habermann, A.N., and Russell, D., ``Bliss: A Language for 
        Systems Programming,'' Communications of the Association of 
        Computing Machinery, December 1972.

Wulf, W.A., and Bell, C.G., ``C.mmp: A Multi-Mini Processor,'' 
        Proceedings of the FJCC, November 1972.

Wulf, W.A., et. al., ``Hydra--The Kernel of a Multiprocessor Operating 
        System,'' Communications of the ACM, June 1974.

Wulf, W.A., London, R., and Shaw, M., ``Abstraction and Verification in 
        Alphard: Introduction to Language and Methodology,'' IEEE 
        Transactions on Software Engineering, December 1976.

Wulf, W. Knight, J., and Prey J., ``Undergraduate Computer Science 
        Education: A New Curriculum Philosophy And Overview,'' ACMCSE 
        conference, Mar. 94.

Grimshaw, A., and Wulf, W., ``The Legion Vision of a Worldwide Virtual 
        Computer,'' Communications of the ACM, Jan. 1997, Vol. 40, No. 
        1.

McKee, Sally, Wulf, Wm. A., et. al., ``Smarter Memory: Improving 
        Bandwidth for Streamed References,'' IEEE Computer, Vol. 31, 
        No. 7, July 1998.

Chenxi Wang, William Wulf, ``A Distributed Key Generation Technique for 
        Public Key Infrastructures,'' Netnomics, Vol. 2 (2000), pp. 
        265-278. Baltzer Science Publishers. The Netherlands.

    Chairman Baird. Thank you. Dr. Calvin.

 STATEMENT OF DR. JAMES A. CALVIN, INTERIM VICE PRESIDENT FOR 
    RESEARCH; PROFESSOR OF STATISTICS, TEXAS A&M UNIVERSITY

    Dr. Calvin. Chairman Baird, Ranking Member Ehlers, and 
Members of the Subcommittee, I am honored to be able to 
represent Texas A&M University and testify about the role of 
non-governmental organizations and universities.
    Texas A&M has a long history of supporting the three-fold 
mission of research, teaching, and public service and 
globalization of research and education is a natural extension 
of this traditional mission. Through globalization, Texas A&M 
has been able to produce graduates that are better prepared to 
compete within the global marketplace, recruit top-level 
faculty, and leverage local and national research support while 
at the same time further developing a positive international 
reputation.
    To support these numerous international exchanges at Texas 
A&M, we have over 130 active international Memoranda of 
Understanding and are currently in the process of formalizing 
nearly 30 additional MOAs. Of note is our branch campus in 
Doha, Qatar, where we offer four undergraduate engineering 
degrees with graduate programs soon to be established. This 
campus is supported by the Qatar Foundation, and so no taxpayer 
or tuition money is used to support this effort. Significantly, 
the curriculum requirements are the same as in College Station. 
Thus, undergraduate students must complete six hours in 
American history and six hours in political science in order to 
graduate.
    The workplace and the scientific landscape have become 
increasingly global. No country can maintain a monopoly on 
scientific discoveries or on a trained work force. Thus, it is 
incumbent upon universities such as Texas A&M to engage this 
global environment so that we can lead instead of follow.
    Employers of our graduates tell us that they want employees 
with global perspective. Providing international experiences to 
over 46,000 students is difficult if we limit ourselves to only 
sending students to foreign locations. Having more than 4,000 
international students on our main campus allows Texas A&M a 
significant opportunity to create global experiences for a 
broad set of our students within the College Station 
environment.
    A unique example of this involves the current president of 
Panama and a former student of Texas A&M. As a result of the 
Panamanian President's experience, he has promoted increased 
student and faculty exchanges with Texas A&M as a mechanism to 
help increase competitiveness of Panamanian universities.
    Scientific discoveries come from all over the globe. In 
many cases, these efforts are most effective if they involve 
global collaboration. Although we have relationships around the 
world, we have chosen to focus particular emphasis on three 
regions, the Middle East, Asia, and Latin America. Here are 
some selected examples of such partnerships and their benefits. 
We have an agreement with Mexico's National Council of Science 
and Technology, or CONACYT, which is their equivalent of our 
National Science Foundation, that was formally established in 
2002. Texas A&M and CONACYT have invested over $2.2 million in 
93 new collaborative research teams involving investigators 
from both Texas A&M and Mexico. In fact, the partnerships are 
only funded if they are equally supported by both Texas A&M and 
Mexican researchers, and they cover topics of interest to both 
Mexico and the United States, from Cross-Border Land and Water-
Use Changes to Diabetes and Cardiovascular Disease to Electric 
Energy by Alternative Renewable Resources.
    Texas A&M, the George Bush Presidential Library Foundation, 
and the Chinese People's Association for Friendship with 
Foreign Countries have hosted three China-U.S. Relations 
Conferences that have helped expand academic and business 
opportunities and strengthen one of our most important global 
relationships. Through this conference, Texas A&M is helping to 
promote continued dialogue, at all levels, and encourage the 
development of strong partnerships in areas of joint interest.
    Our campus in Qatar provides us with a remarkable 
opportunity to provide help in producing an increased 
engineering workforce in the Middle East while simultaneously 
providing research opportunities to work on problems of global 
interest. During this past year, Texas A&M University Qatar 
faculty received grants from the Qatar National Research 
Foundation for approximately $12 million to pursue research 
topics in engineering, the physical sciences, and mathematics, 
all on topics that are of equal interest to Texas and the 
United States.
    Our new Institute for Applied Mathematics and Computational 
Science is a partnership with the King Abdullah University of 
Science and Technology, or KAUST, located in Saudi Arabia. 
Through this $20 million effort funded by KAUST, Texas A&M 
faculty will be working on problems that are of fundamental 
importance while simultaneously helping to establish a new 
higher education institution built on the western educational 
model. The institute is part of a global research alliance that 
currently includes only three other centers located at 
Stanford, Cornell, and Oxford.
    Finally, Norman E. Borlaug, winner of the Nobel Peace 
Prize, Presidential Medal of Freedom, and the Congressional 
Gold Medal, is a Distinguished Professor of International 
Agriculture at Texas A&M. The Borlaug Institute is assisting 
other nations to combat world hunger through technical 
innovation, training of agricultural scientists and workers, 
and intellectual leadership. There are currently 15 Texas A&M 
personnel serving throughout Iraq working in cooperation with 
USAID, USDA, and DOD.
    In addition to what was said previously, there are three 
areas of interest that I think are quite significant in the way 
that universities can support the efforts of Texas A&M and all 
universities.
    The first, as has been mentioned before, is the visa 
process. While national security issues are clearly a high 
priority, efforts to enhance appropriate international 
intellectual changes still need to be encouraged. An important 
way the Federal Government can provide unique support is 
through the development of new programs that effectively 
provide joint funding for international collaboration. Many 
partnerships can be initiated through a number of local 
capabilities, but to move the successful ones to the next level 
of progress, we really need funding that is able to provide 
resources as was previously mentioned to partnerships 
regardless of their location.
    This includes support for American students wishing to 
study abroad as well as the international research efforts that 
I have discussed. And if these resources can be made available, 
the funds for the international research efforts should be 
committed for the long-term so investigators can make the 
commitment required to make important advances in these new 
programs and so that our international collaborators know that 
they can depend upon our participation as they develop and 
commit their share to such a funding model.
    And finally, we believe it is important that as we begin 
these new initiatives, scientific peer review is a driving 
force behind the allocation of resources. It is through the 
competitive processes that we have developed as a country that 
the best science can be performed and given into the most 
effective hands.
    Thank you.
    [The prepared statement of Dr. Calvin follows:]

                 Prepared Statement of James A. Calvin

    Mr. Chairman, Ranking Member Ehlers, and Members of the 
Subcommittee, my name is James Calvin, and I am the Interim Vice 
President for Research at Texas A&M University. Good morning and thank 
you for including me in this prestigious list of speakers. I am honored 
to be representing universities in testifying about the role of non-
governmental organizations and universities in international science 
and technology cooperation.

Background

    As one of the select few universities with the land-, sea- and 
space-grant designations, Texas A&M has a long history of supporting 
the three-fold mission of research, teaching, and public service at a 
research intensive university. The globalization and diversification of 
research and education is a natural extension of this traditional 
mission and is in fact one of the University's key imperatives outlined 
in Vision 2020, the University's effort to attain consensus top-ten 
status among public universities by the year 2020. Through its 
globalization and diversification efforts, Texas A&M is able to provide 
a more well-rounded education for our students, ensure that our faculty 
have the ability to engage in collaborative research with the leading 
researchers throughout the world, and promote Texas A&M as a research 
hub that encourages the best and the brightest from around the world to 
pursue their education within the United States. The result of these 
efforts is that Texas A&M has been able to produce graduates that are 
better prepared to compete within the global marketplace, recruit top-
level faculty members, and leverage local and national research support 
through international partnerships as well as further developing a 
positive international reputation.

Demographics

    Texas A&M has a student population of 46,542 (37,357 undergraduate 
and 9,185 graduate students) studying in over 250 degree programs in 10 
colleges. Among these students, we have 4,025 international students 
from 124 countries. While a great number of these students come from 
Mexico, China, Taiwan, South Korea, and India, we also have students 
from Bhutan, Croatia, Eritrea, Macao, Yemen, and Togo.
    During this academic year, Texas A&M hosted 577 foreign faculty 
scholars, representing 74 countries. Many of the faculty come to Texas 
A&M as a result of the relationships established through formal 
Memoranda of Agreement (MOA), while others visit our campus as a result 
of personal relationships with Texas A&M faculty established through 
usual scientific exchanges. Today, we have 132 active MOAs with 
universities and research institutions in 45 countries. We are also 
currently in the process of formalizing nearly 30 additional MOAs.
    Texas A&M operates a branch campus in Doha, Qatar offering four 
undergraduate engineering degrees in Chemical, Electrical, Mechanical 
and Petroleum Engineering. In addition, research and graduate programs 
will soon be established at the Qatar campus. This campus is supported 
by private funding, as the Qatar Foundation underwrites our efforts in 
Doha. No taxpayer or tuition money is used to support this effort. When 
offering a degree from Texas A&M, either in College Station or in Doha, 
the curriculum requirements are the same. Thus, undergraduate students 
must complete six hours in American history and six hours in political 
science.
    We also maintain two overseas centers in Italy and in Mexico City 
and are currently establishing a third center in Costa Rica. The 
University is also a part of the network of 27 federally funded 
national centers for International Business Education and Research, 
maintains an Office for Latin American Programs and an Institute for 
Pacific Asia and has received funding from the European Commission to 
establish one of the 10 European Union Centers of Excellence in the 
United States.
    Although Texas A&M has research and educational relationships all 
over the world as well as the physical presences in Mexico, Italy, 
Qatar and Costa Rica, we have chosen to focus particular emphasis on 
three regions: the Middle East, Asia, and Latin America.

Role and benefit to Texas A&M of participating in international 
                    research and education cooperation

    The workplace and the scientific landscape have become increasingly 
global. No country can maintain a monopoly on scientific discoveries or 
on a trained work force. Thus, it is incumbent upon universities such 
as Texas A&M to engage this global environment so that we can lead 
instead of follow. The value of globalization can be seen in all three 
components of our mission-research, teaching and public service. 
Because of Texas A&M's commitment to diversity and globalization and 
its varied international initiatives, we have better prepared students, 
globally competitive research programs, and a long history of giving 
back to the world community. Our graduates are better prepared, more 
rigorously trained and have a broader perspective upon which to draw as 
they enter the marketplace. Our research efforts have a broader impact 
and the resources that can be used for research are leveraged. The area 
where impact is arguably the greatest, but the least mentioned, is 
within the realm of public service. By working on problems of bilateral 
or multi-lateral interest, we can help to develop solutions to 
practical problems that can provide immediate impact and provide an 
avenue for economic development. All of this allows Texas A&M to 
provide increased capabilities and value to the state and the Nation, 
while simultaneously helping to develop strong partnerships with our 
key regions of collaboration.
    Our various study abroad programs and opportunities as well as our 
efforts at our international campuses and centers in Qatar, Mexico, 
Italy and our emerging campus in Costa Rica play vital roles in helping 
our students prepare for life after graduation. However, providing 
international experiences to 46,000-plus students is an inconceivable 
mission if we limit ourselves to only sending students to foreign 
locations. Having more than 4,000 international students on our main 
campus allows Texas A&M a significant opportunity to create global 
experiences for a broad set of our students and provides experience 
possibilities that do not require students to be able to afford the 
additional cost of a student abroad opportunity. For example, the 
Muller International Host Program (MIHP) was started by some students 
out of the Academy for Future International Leaders who started by 
taking international students home for holidays. The purpose of MIHP is 
to provide international students the opportunity to interact with a 
local family from the United States. This allows students to gain a 
better understanding of U.S. cultures and values. MIHP also provides 
international students with an informal atmosphere in which they can 
ask questions about U.S. customs, culture, and society. By 
acknowledging that international students are a welcome part of the 
Texas A&M community, MIHP deepens the relationship between 
international students and the Texas A&M community. MIHP also increases 
international students' knowledge of U.S. social institutions, promotes 
a better understanding of issues facing the international community, 
and provides international students a reference for casual U.S. dining. 
In exchange, the international students also have a chance to discuss 
their own cultures and social customs and bring the international 
experience home to their host families. Most importantly, MIHP lowers 
cultural barriers.
    These invaluable educational experiences prepare our domestic 
students for jobs with multinational companies and the ability to 
perform under a wide variety of environments and with a diverse 
workforce and potentially diverse clientele. With a welcoming and 
nurturing global campus, the international student population, in turn, 
learns the merits and perspectives of the U.S. educational system and 
allows Texas A&M to cultivate relationships with individuals who become 
influential leaders back in their home countries. The current President 
of Panama is a former student of Texas A&M. As a result of Panamanian 
President Martin Torrijos Espino's experiences at Texas A&M, he has 
promoted formal student and faculty exchanges with Texas A&M as a 
mechanism to help increase the competitiveness of Panamanian 
universities.
    Many areas of national need, for example the STEM fields of 
Science, Technology, Engineering and Mathematics, have a shortage of 
students. While it is imperative that we increase the number of U.S. 
students pursuing training in these areas, international students also 
provide a resource that can help drive the University's research agenda 
and provide trained graduates to meet the needs of U.S. employers. It 
is important to recognize that in addition to providing needed 
expertise to employers, international students often become 
entrepreneurs that add to the vitality of the U.S. economy and provide 
employment for many U.S. citizens.
    Scientific discoveries are coming from all over the globe. In 
addition, many scientific challenges, such as effective alternative 
energy supplies and new breakthroughs in the life sciences require 
multi-disciplinary teams. In many cases, these efforts are most 
effective if the collaborations involve global partnerships. These 
partnerships can also leverage the resources of a Texas A&M faculty 
member as the global partner brings resources to the collaboration. The 
benefits of these partnerships will be both scientific and economic.
    Oversight of the relationships that are established is an important 
aspect of any multi-institutional partnership. When educational 
experiences of our students are involved, these mechanisms require 
additional effort. Each MOA that is signed must go through a rigorous 
review process that ensures multiple institutional officials review the 
agreement. At Texas A&M this is monitored at the highest levels. In the 
case of our branch campuses, we maintain on-sight staff that is charged 
with the oversight of the student experiences. In the case of the Qatar 
campus, we maintain a full academic administrative structure to ensure 
that the experiences students receive replicate the ones that they 
would receive if they were on the main campus.

Existing research and science education programs

    As was mentioned earlier, we maintain a large number of 
international relationships that span a wide variety of disciplines and 
levels of engagement, from person-to-person relationships to major 
institutional commitments to international consortia. A long-standing 
example of our effective partnerships is the bilateral agreement we 
have with Mexico's National Council of Science and Technology 
(CONACYT). Through this partnership formally established in 2001, Texas 
A&M and CONACYT have invested over $2.2 million in collaborative 
research teams involving investigators from both Texas A&M and Mexico. 
The 93 projects funded so far through this program have established new 
collaborations, provided support for numerous students (from both 
Mexico and Texas A&M) and provided the seed funding needed to initiate 
collaborations that could not have been established without this 
support. The topics of the research are quite varied and of major 
interest to both Mexico and the United States, from Cross-Border Land 
and Water-Use Changes to Diabetes and Cardiovascular Disease among 
Mexicans and Mexican Americans to Electric Energy by Alternative 
Renewable Resources. Another example of the benefits of this program is 
the team of researchers who are working a multi-year bovine 
tuberculosis project. This funding not only allowed the research team 
from Texas A&M and from Mexico to look for a solution to a serious 
health problem that affects both animal and human populations along the 
U.S.-Mexico border, but also enabled graduate students to work along 
side the counterpart investigators in a meaningful way. As can be seen, 
this partnership is leading to not only scientific advances, but the 
potential for the outcomes to provide stimulus to the economic 
development of the Texas-Mexico border.
    Our campus in Education City in Doha, Qatar provides us with a 
remarkable opportunity to help provide an increased capacity to develop 
an engineering workforce in the Middle East while simultaneously 
providing research opportunities to work on problems of interest to 
Texas, as well. An important aspect of the efforts in Education City is 
that this is a co-educational environment that promotes men and women 
learning and working in the same environment. During this past year, 
faculty at Texas A&M-Qatar received grants from the Qatar National 
Research Foundation (QNRF) for approximately $12 million to pursue 
research in topics in engineering, the physical sciences, and 
mathematics. In addition, our engagement in Education City has led to 
separate research opportunities for our Colleges of Education and Human 
Development and Liberal Arts.
    The College of Education and Human Development was invited to 
collaborate with the University of Qatar to set standards for their 
teacher training programs. Qatari graduates from this joint program 
will be competent, motivated teachers prepared to train students to 
achieve at the highest international standards.
    In addition to traditional international research partnerships, 
Texas A&M is also involved with three examples of novel cooperative 
relationships. Texas A&M University, the George Bush School of 
Government and Public Service, the George Bush Presidential Library 
Foundation, and the Chinese People's Association for Friendship with 
Foreign Countries have hosted three China-U.S. Relations Conferences 
that have helped expand academic and business opportunities and 
strengthen one of the most important global relationships. As has been 
noted by President George H.W. Bush, China is our most important 
bilateral relationship. Through this conference, Texas A&M is helping 
to promote continued dialogue, at all levels, and encourage the 
development of strong partnerships in areas of joint interest. On the 
scientific side, this biennial conference series brings together 
scientists from the United States, primarily Texas A&M and China, to 
identify ways to work on problems facing both countries. A recent 
example of a successful collaboration is the project comparing the 
Yangtze and Mississippi River basins related to global climate 
variability and coastal ecosystem change.
    Additionally, Texas A&M has received a significant grant from the 
U.S. Department of Defense (DOD) to help strengthen the ability of 
future military officers in language and cultural competency. The 
grant, part of the 2008 Reserve Officer Training Corps (ROTC) Language 
and Culture Project, is sponsored by the National Security Education 
Program, on behalf of the Defense Language Office, and will be used to 
create on-campus as well as overseas programs to enable students in the 
Corps of Cadets to gain greater exposure to the Chinese and Arabic-
speaking worlds, as well as to create courses and other programs to 
improve language skills.
    A second novel partnership is our new Institute for Applied 
Mathematics and Computational Science (IAMCS), which is a partnership 
with the King Abdullah University of Science and Technology (KAUST) in 
Saudi Arabia. Through this $20 million effort funded by KAUST, faculty 
at Texas A&M and its partner institutions will be working on problems 
that are of global importance while simultaneously, like Qatar, helping 
to establish a new higher education institution built on the western 
educational model. IAMCS is part of a global research alliance that 
includes only three other centers at Cornell University, Stanford 
University, and Oxford University. The research resulting from IAMCS 
will be open to peer review and published in the highest quality 
journals. We will develop new results that both advance the disciplines 
within mathematical and computational sciences, but also work on 
recurring annual themes, such as Earth science and material science to 
help solve problems that will impact multinational audiences.
    Finally, Norman E. Borlaug, winner of the 1970 Nobel Peace Prize, 
the 1977 Presidential Medal of Freedom, and the 2006 Congressional Gold 
Medal, is a Distinguished Professor in International Agriculture at 
Texas A&M. As the largest center for agriculture and life sciences in 
the world, Texas A&M Agriculture is--by virtue of mission and vision--
uniquely poised for a new era of global leadership. Texas A&M's Borlaug 
Institute is assisting other nations to combat world hunger through 
technical innovation, training of agricultural scientists and workers, 
and intellectual leadership.
    Current projects related to Iraq and Afghanistan include a $4 
million USAID project for range management in Afghanistan, the $6 
million USDA IAER program to improve agricultural extension in Iraq, 
and a $10 million USAID subcontract on the Inma Agribusiness program to 
build agribusiness in Iraq. The Institute's work began in Iraq in 2003 
with crop technology demonstrations and extension support under the 
USAID Agricultural Reconstruction and Development for Iraq (ARDI) 
project based in Baghdad and Erbil. The Institute has had long-term 
agricultural specialists in Iraq from 2003 until the present.
    Resulting from previous and current experience in Iraq, Texas A&M 
personnel are acquainted with Iraqi universities, government agencies, 
industries, businesses, infrastructure, leaders, natural resources and 
agricultural production technologies. There are currently 15 Texas A&M 
personnel serving throughout Iraq working in cooperation with USAID, 
USDA, and DOD. We are engaged in private sector economic development, 
collaboration with educational institutions, and providing science-
based solutions for the rehabilitation of the Iraqi agricultural 
sector.

Federal interaction and support

    While the visa process is the most obvious example of interaction 
between Texas A&M and the Federal Government, we also actively engage 
federal sponsors and the peer reviewed mechanism to obtain funding to 
support our initiatives. In many cases, these funds are then leveraged 
by private or international sources. In the case of the China-U.S. 
Relations Conferences, we have actively involved cabinet level 
officials or their representatives to provide keynote addresses.
    In looking at the broad perspective of global collaboration, one 
way the Federal Government can provide unique support is through the 
development of new programs that effectively provide funding for 
international collaboration. At this time, collaborations can be 
initiated through a variety of mechanisms, such as our partnership with 
CONACYT, but long-term funding for the most promising collaborations is 
extremely difficult to obtain. In most cases, such success involves 
each collaborator searching for funding independently in their home 
countries and hoping that both can find funds during the same funding 
cycle. Given the current rigorous competition for existing research 
funding, it appears that new resources would be required for such a 
program so that existing high priority initiatives are not impacted.
    If resources can be made available, we feel that the funds should 
be committed for the long-term so that investigators can make the 
commitment required to make important advances in these new programs 
and so that our international collaborators know that they can depend 
upon our participation as they develop and commit their share of such a 
funding model.
    It would seem natural that prioritization of research programs 
would be necessary to ensure sufficient resources to make an impact. A 
broad dialogue will be important in determining what these priorities 
are and ensuring that both scientific preeminence and economic impact 
will have a role in determining the topics that are chosen. It is 
important, however, that the scientific peer review process drive the 
allocation of the resources once the priorities are established to 
ensure credibility within the scientific community and the best 
possible science.
    I thank the Committee for the important work they do for U.S. 
scientific research, and specifically, their interest in this important 
topic.

                     Biography for James A. Calvin

    James A. Calvin earned his doctorate and Master's of Science 
degrees in statistics from Colorado State University in 1985 and 1980, 
respectively. Dr. Calvin received his Bachelor of Science degree in 
computer science and mathematics from the University of Oregon in 1976. 
Upon earning his doctorate, he held the rank of Assistant Professor in 
the Department of Statistics and Actuarial Science at the University of 
Iowa from 1985 to 1991 and held a secondary appointment in the Division 
of Biostatistics from 1988 to 1991.
    Dr. Calvin Joined the Texas A&M University faculty in 1991. From 
1998 to 2004, he was Professor and Head of the Department of Statistics 
with secondary appointments in veterinary anatomy and public health, 
epidemiology and biostatistics, and toxicology. In 2001, he became an 
Associate Vice President for Research and was appointed as the 
Executive Associate Vice President for Research in 2004. He has served 
as Interim Vice President for Research since September 2007.
    Dr. Calvin's research interests include linear models, multi-
variate variance components, biostatistics, measurement error, spatial 
models, and statistical process control. He is the principal 
investigator for the Texas A&M Institute for Applied Mathematics and 
Computational Science. The new institute, funded by King Abdullah 
University of Science and Technology in Saudi Arabia, will engage 
mathematicians, statisticians and computer scientists on problems that 
span the Earth sciences, materials science and the bio-sciences. 
Applications include reservoir modeling, thermo-acoustic and photo-
acoustic imaging related to disease diagnosis, gene expression modeling 
and complex data, including seismic and genomic information.
    Dr. Calvin has served on several editorial boards, including 
Biometrics, where he served as Executive Editor, the Journal of the 
American Statistical Association, Communications in Statistics and the 
ASA-SIAM Series on Statistics and Applied Probability. Dr. Calvin is a 
fellow of the American Statistical Association and an elected member of 
the International Statistical Institute. He has directed seven 
successful graduate students and authored numerous publications.

                               Discussion

    Chairman Baird. Thank you all for outstanding testimony. We 
much appreciate it.
    We will now begin the questions, and I will recognize 
myself for five minutes, and we will follow with Dr. Ehlers. We 
have been joined by Dr. McNerney from California. Dr. McNerney, 
thank you for joining us and for your service on this 
committee.
    I want to begin by addressing what we heard from a number 
of you, the issue of visas. This committee has had a hearing on 
this, and the good news that we are told that the visas are 
improving. The bad news is there is still a lot of challenge 
both in terms of the reality of whether they are being 
processed quickly enough and also the perceptual realities 
internationally about the difficulties people face. We have had 
both hearings publicly here but also private meetings with a 
number of people from various Homeland Security and related 
departments, and we are continuing to work on that. The point 
is well-taken, and we are working on that.
    Also, I want to begin also by congratulating you, Dr. 
Leshner, on the Center for Science Diplomacy. And we are 
honored that you would announce that here and perhaps you have 
announced it elsewhere, but it is----
    Dr. Leshner. No, today is the day.
    Chairman Baird. Is that right?
    Dr. Leshner. This is the moment.
    Chairman Baird. It is perfect. Great minds think alike I 
guess, and I can't think of a better organization to do that. 
We will look forward to good things from the Center, and any 
way we can assist in that, we will be happy to and to celebrate 
your accomplishments.
    Now, you also mentioned, Dr. Leshner, the importance of the 
Foreign Relations Committee. Howard Berman is quite interested 
in this issue. We have had a number of conversations with him 
and his staff. They have been sitting in on meetings, and our 
hope is really to kind of set the table here through this 
series of hearings we have been having and then work in very 
close concert with Chairman Berman and also with Nita Lowey. 
They both appreciate the value of this and have some great 
staff working on this issue, and we are eager to work with them 
on that.
    I want to ask a few questions if I may. This issue 
repeatedly mentioned in your testimony about the restrictions 
on U.S. funds to go to foreign researchers, a couple questions 
emerge. One, we have the Fulbright Program, predominantly to 
bring folks here, but do we need something like that where we 
would fund foreign researchers in their home countries with 
U.S. dollars? You don't necessarily want to dilute the NSF 
monies, but how would we do it? If you could devise a program, 
what would it look like? And we will hear from all the 
witnesses.
    Dr. Leshner. Perhaps I will start. I would say that from my 
own perspective, the only conditions under which I would 
support research in a foreign country without an American 
collaborator is if in fact it was something we really needed to 
know and we were confident it was something that was not going 
to happen in the United States.
    Chairman Baird. Let us assume we have a U.S. collaborator.
    Dr. Leshner. Right. So when we have a U.S. collaborator, 
often, particularly in developing countries, the foreign 
collaborator can't afford to provide the resources for their 
part of their research. If we're serious about fostering 
collaboration and if we have a serious motivation towards 
helping in infrastructure development in other countries, 
particularly in the developing world, then I think we have an 
obligation to provide at least minimal support. The big issue, 
however, in the diplomacy aspect of this is to make sure that 
these are not just one-shot, one-year investments. If we are 
serious about building infrastructure, we have to be willing to 
sustain it and maintain it at least for a while over time.
    Chairman Baird. Very good point.
    Dr. Clegg. I agree with Alan's points, but let me add that 
in my capacity with the National Academy of Sciences, I travel 
around the world very frequently and meet with the leadership 
of science of most of the countries of the world, and it is 
remarkable the number who have had experiences in the United 
States. Most of them speak English, they know our culture much 
better than we know theirs, they are very good interpreters of 
our society in their own environments, they are our friends. 
Typically they desire to collaborate with us. This is a huge 
investment that began after World War II and continued up until 
the late '80's but after that has declined substantially. These 
assets will not be there. This generation is passing from the 
scene. We will not have the kinds of contacts and people who 
are familiar with our scientific institutions and our society 
more broadly in the leadership of science internationally in 
the future.
    So I would urge that one important step is to begin to re-
establish the support for international graduate studies from 
developing countries, not from the developed countries but from 
developing countries where we can continue to benefit from this 
personal exchange.
    Chairman Baird. Dr. Wulf.
    Dr. Wulf. Several points I would like to make. First of 
all, the issue of funding foreign scientists to do research in 
their own countries is what CRDF does, funded by NSF, the State 
Department, Department of Energy, Department of Defense, and 
NIH. The original goal was to fund foreign scientists. This is 
something that an NGO can do. It is not so easy for the Federal 
Government to do.
    Second, I would like to amplify just a little bit on your 
comment about visas in two dimensions. First of all, I think 
all of us sitting at this table travel a good deal overseas, 
and a common reaction that I get from my colleagues overseas is 
``what are you doing?'' We are shooting ourselves in the foot, 
although I know that the average time it takes for a student 
visa to clear has gone from several months down to less than 
two weeks. That is not the story that plays on the front page 
of the newspapers overseas. It is the rare but newsworthy case 
where it takes six months or we deny a visa to a renowned 
scientist.
    There is a second problem, and that is the problem of 
``deemed exports.'' I had the privilege of serving on the 
Department of Commerce Committee to look at the question of 
deemed exports, but unless something changes, we could wind up 
in a situation in which no foreign student is allowed to do any 
research at a university in the United States. It is a very 
serious problem. Our Committee submitted its report to the 
Secretary of Commerce back in late December or early January. I 
think they have been working on it. But there may be 
legislative action that is required as well, and so I would 
urge you to think about that.
    And finally, I would like to just reiterate some of what 
Mike said about the goodwill that we have engendered overseas 
because of the foreign students who have been here. Mike and I 
were both in Iran in October, and it is just hard to explain 
how much the faculty at places like Sharif University, which is 
sort of their MIT, like Americans, understand our values, 
admire our values, and are some of the best ambassadors that we 
have in the entire world. So this is gold.
    Chairman Baird. Dr. Calvin?
    Dr. Calvin. I think many of the points have already been 
mentioned, so I don't want to duplicate them, but two things I 
think are important to recognize is one, not all countries we 
want to engage in national partnerships are the same. And so a 
model that may work well in many developing countries isn't 
necessarily the right model to engage China, for example. And 
so I think we need to come up with a broader perspective on the 
issue of how we approach the problem.
    Second, I think it is important from a scientific 
standpoint that we need to have a model so that the money goes 
where it goes where it needs to go to get the science done. And 
if that is in on relocation or the other, it shouldn't be the 
issue. Is the science getting done and is the effective 
partnership in place to make that science work appropriately. 
And if we pay attention about quotas on one side or the other, 
we eventually find that there is inefficiencies in the system 
that doesn't allow us to get as much bang for our buck as we 
would like.
    Chairman Baird. Dr. Calvin, I will close with one comment, 
and then recognize Dr. Ehlers, and that is that Dr. Clegg, you 
mentioned and others mentioned the importance of Mid-East 
applications of scientific diplomacy. One of the things I would 
hope we would also do, I think it is absolutely correct that 
our technological and scientific prowess is admired by Middle 
Eastern nations. I would hope we could also look at science 
diplomacy as leading to our recognition of the scientific 
history and contributions of Middle Eastern nations. One need 
only look at some of the early astrolabes created by Islamic 
scientists to realize that we owe a profound debt, algebra, 
zero, a few other things----
    Dr. Calvin. Right. Absolutely.
    Chairman Baird.--to them, and we need to accentuate that 
awareness within our own culture I think as well.
    With that, I recognize Dr. Ehlers.
    Mr. Bilbray. First I want to clarify that they hijacked 
that from India and from the Far East, too, so it was 
transmission of knowledge, not necessarily the discovery of it.
    Mr. Ehlers. That was not me, by the way.
    Chairman Baird. The Chair recognizes Dr. Ehlers.
    Mr. Ehlers. Thank you. It just struck me when you said they 
gave us zero. They gave us zero and we give them nothing, and 
we think it is a fair exchange.
    Thank you very much for your testimony. It has been very, 
very enlightening to me. I spent a year in Germany many years 
ago as a post-doctorate fellow supported by NATO, and I thought 
that was a marvelous program, especially to have some of our 
military money funneled into a good program like that. But also 
later on my research advisor, Bill Nuremberg--some of you know 
him, brilliant physicist, lots of energy, but also a good 
diplomat--he was appointed by the Department of State as the 
representative to NATO on the science level. And we did those 
things much more often back then.
    I think we certainly have to return to that and we have to 
correct the visa problem, but I am very impressed, Bill, with 
the program you outlined and I didn't know much about it and I 
am pleased to hear about what you are doing. It is a very good 
way to do it.
    One thing we did at Berkeley when I was on the faculty 
there, we took some students from Turkey and had them in our 
laps for a few years, and then one of our faculty members, one 
of my colleagues, spent some time in Turkey; and it was a 
marvelous experience because it made us realize how difficult 
it is to do research in a foreign country. And when my 
colleague was over there, almost every day I would get a 
telephone call, can you send me three O rings of such-and-such 
a size. It really was that bad. And we don't appreciate that 
enough, and I think having their students come here and letting 
our students and professors go there is really good in helping 
break the logjam in that. Some of the horror stories that I 
have heard from foreign scientists I have worked with, one 
ordered a marvelous new piece of equipment--this was many years 
ago, before bubble wrap and all those sort of things. It was 
packaged in a box with not foam insulation but micro light 
insulation and paper. The customs official just sliced that 
open, filled the scientific equipment with all these little 
particles. It took them six months to clean it out. It is just 
endless problems to be dealt with.
    I am just very pleased with what you said and the progress 
I see. I think we ought to work very hard at breaking down some 
of these barriers, and the first time I encountered it when I 
got here, I was asked to write this brief, little booklet on 
science policy. And one of the goals--I think I developed it 
with the assistance of the National Academy--was to get a 
scientist back in the State Department. Why that ever stopped, 
I don't know. But the difficulty of getting it restarted just 
amazed me. It seemed to me a self-evident thing. Fortunately it 
is under way now.
    We have so much work to do in so many areas on this topic, 
and I am just glad you are there doing it. I don't really have 
questions, I just wanted to say I am very pleased with what you 
are doing, and keep it up. If there are things that we can do 
to help, please let us know. The visa question, Dr. Baird has 
done a great job on addressing that, but we know there are a 
lot of other issues we should be addressing. I would like to 
see a lot more exchange programs, not just the current 
situation where some students come here if they get the money 
and we send some people there, but an organized program with 
constant exchange, as we used to do with the Soviet Union.
    I think I have time left, but I will set a standard for 
everyone, be the first one to close before the bell goes off. 
Thank you very much, Mr. Chairman.
    Chairman Baird. Dr. McNerney.
    Mr. McNerney. Thank you very much, Mr. Chairman. I do want 
to thank you for pulling this together. It is a very important 
subject. And you know, as important as it is for the 
development of science and technology, it is also as you 
mentioned critical for just understanding international issues. 
I think science is the tool we can use to open up these 
barriers. And so I really encourage you and you colleagues to 
continue.
    I have a couple of questions. First of all, how interested 
do you see multinational corporations being in developing an 
infrastructure for international scientific cooperation and 
collaboration?
    Dr. Wulf. CRDF has experienced substantial financial 
support from multinational corporations, both for research 
projects and also for education.
    Mr. McNerney. Are there particular sectors that you think 
are more interested in----
    Dr. Wulf. The energy sector has been very interested. The 
high-tech sector, it is an embarrassment that we are now a net 
importer of high-tech products. But yes.
    Dr. Clegg. I will just echo what Bill says. There is great 
interest because of the perception that markets are largely 
going to go abroad and not to the United States. And so 
American high-tech industries have a strong interest in 
developing relationships abroad. But their interests are 
largely driven by their business models and a need to deliver 
to their stockholders. But they aren't as interested I think in 
the long-term issues that we have tried to portray in our 
presentations.
    Mr. McNerney. Do you think that the standards of ethics and 
integrity are an important issue for scientific development in 
countries that have different cultures than us, I guess is a 
way to say that?
    Dr. Leshner. Sure, and more and more we are seeing evidence 
that as the global scientific enterprise becomes more unified, 
more integrated, we are seeing more and more efforts among 
countries to have those kinds of discussions very candidly. We 
have participated in an array of them, including with China who 
has invested tremendously, a tremendous amount of effort in 
trying to develop their own set of standards and regulations 
and have them being in keeping with the rest of the world. But 
it is an effort that has begun and needs to continue. I am sure 
that the Academies and the InterAcademy Panel have worked on 
these issues as well.
    Dr. Clegg. Let me just pick upon what Alan has said and 
also to relate it back to a comment that Bill made. As Bill 
mentioned, we have a program of workshops with Iran which are 
conducted on an annual basis. One of the first workshops that 
the Iranians wanted to have was on scientific ethics. But I 
would like to also return in the context of ethics to a broader 
point which is that science does operate within an ethical 
framework because you cannot do science without paying 
attention to the material evidence, and science has to be 
repeatable so it has to be honest. So there is an ethical basis 
to science which adds we believe to the temper of society, and 
therefore helping expand science and technology capabilities in 
other parts of the work also expands an ethical basis which is 
an important dimension of science.
    Mr. McNerney. Thank you. I am not sure who to ask this 
question or who to direct this question to. What do you think 
the limiting factors are in promoting global scientific 
cooperation and collaboration? What are the ultimate limiting 
factors? Is it political, is it economic, is it cultural, or is 
it something else that I haven't mentioned?
    Dr. Calvin. My experience is that--and of course, this is 
coming from a single institution--but there is no limitation in 
scientists' interest or willingness as long as the research is 
available for public peer review processes to find new partners 
and engage in new collaborations. What is limiting is 
mechanisms to provide introductions to those individuals and 
then the model so that if you can instigate a new partnership, 
you can actually follow through on your relationship. As it 
stands right now, if I have a colleague in another country, we 
have to go to separate funding mechanisms under separate 
funding cycles and hoping that we can make a case for something 
that is of interest to two, non-coordinated bodies to be able 
to push forward from an initial process. So it is this 
coordination of communication, and then a model that approves 
the partnership.
    Mr. McNerney. What you see is a bureaucracy, the 
bureaucratic hassle is one of the biggest factors, then?
    Dr. Calvin. I guess if you want to put it that way. You 
know, resources always become an issue at some point.
    Mr. McNerney. Of course.
    Dr. Calvin. But faculty members at our institution are 
aware of what is going on worldwide, and if they have a 
collaborator that is anywhere in the world, they know how to 
get a hold of them and they have the international conferences 
to make the introductions. What they don't have is the 
mechanism to take the next step.
    Dr. Leshner. One of the things if I might just mention is 
that the European Commission opened its Framework Seven 
petition to people outside of the European Union, and we met 
with the Argentine Science Minister last week who very proudly 
pointed out the extent of Argentina's participation in 
Framework Seven. Well, that is not only a form of science 
diplomacy but it is certainly a mechanism that makes it a whole 
lot easier to develop international cooperation. And it is part 
of the reason why I am obsessed with the notion that we need to 
rethink the way in which we structure our own funding for 
international science diplomacy.
    Mr. McNerney. Thank you.
    Dr. Wulf. I can't not say that resources are also a 
limiting factor, which you didn't mention. I have been really 
impressed by the fact that CRDF's average grant to support 
foreign scientists and collaboration between foreign scientists 
and U.S. scientists is $60,000 over two years. Eighty percent 
of that money goes to foreign scientists, 20 percent to the 
United States. That is a tiny, tiny little bit of money and yet 
we have no problem finding U.S. scientists who want to 
participate. They do it because they think it is important, 
because they think it is a contribution that they can make to 
the world. You know, that is not the limitation, money is.
    Mr. McNerney. Speaking of limitations, I think I have run 
over my time a little bit, Mr. Chairman, so I yield back.
    Chairman Baird. Fortunately, Mr. Ehlers had pre-yielded 
time. It is a time back that Mr. McNerney drew upon.
    Mr. Ehlers. I may reclaim that.
    Chairman Baird. Mr. Bilbray.
    Mr. Bilbray. Yes, Dr. Calvin, if you want to be frustrated 
by uncoordinated efforts, you should try to work with the 
Senate. Mr. Chairman, I apologize. I wasn't going to mention 
anything about the visa, but it really is a very important 
issue and I hope that today we can sort of understand that the 
Science Committee ought to be an advocate. But understand that 
the obstructionism that is caused at the visa process is not 
the problem. It is a symptom of a problem. Now, we all have 
heard back and forth the 9-11 terrorists were visa overstays, 
and we assume that the concept of checking like visa status 
whenever you let somebody into an educational institution is 
not the business of educationalized institutions, but then 
again, you have the 9-11 terrorist take a class in aviation and 
use it, and that is one of the problems. So I just hope that 
this Chairman or this committee becomes the perfect spokesman 
for the fact that our problem is that we are trying to do it 
all at the border. You know, we are trying to restrict those 
who come into our country, and what happens is the bureaucrat 
who is making these calls has a feeling that once I say okay, 
there is nothing to back me up afterwards. Forty percent of the 
people illegally in this country are visa overstays, and to a 
lot of people, their argument is the way you eliminate 40 
percent of the problem is just don't allow any visas, and I 
don't think any of us wants to do that.
    But I think that if we want to open up and make the system 
more rational, we have got to understand we got to stop taking 
the political easy route of saying, let us do it all at the 
border, let us just not issue visas or let us tighten up the 
visa process. Rather than having a back-up system so that the 
agent who was given the visa can be assured that, look, 
somebody might slip through, they might overstay, but at least 
I know then that somebody is checking that they can't get a 
driver's license, they can't open a bank account, they can't 
get a job; and then I feel you are going to see the visa system 
much more. But historically, we have not been brave enough to 
address that. I mean, this week I think we are going to have a 
vote on e-verification. Very simple system, name and number 
matches. But even that people don't want to take the political 
heat for, so it ends up being easier politically to put it all 
on the visa system. And I think that as a child of an immigrant 
and watching my cousins trying to get into this country, that 
is one thing that we have got to open up. But if we want it 
opened up, then we have got to be willing to take the heat at 
having a backup system and that means doing these checks, to 
assure the visa application handler, you are not the only 
barrier between the American people and somebody who may come 
into the country or overstay.
    But getting back to one of the things I am interested in is 
the use of water. I think one of the things we are missing is 
that water is going to be the most destabilizing element in the 
world in the future, more than oil, and especially from the 
Jordan to India from the Kurdistan down to the sub-Sahara. And 
the Muslim world is one of the biggest crisis. I am very 
encouraged with your work of getting Israel and Jordan working 
together because no one in the world has done more at 
conservation and application of water than Israel. Negative 
desert research with high salinity, that really could have a 
great diplomatic advantage of moving science but also getting 
two parts of that world working together, and if somebody who 
has worked since I was 25 years old working with Mexico on 
environmental economic issues, that is how you build 
relationships, is working at joint problems together. And can 
you elaborate on how you got Jordan and Israel working 
together?
    Dr. Clegg. Well, actually, it was Jordan, Israel, and 
Palestine, and we initially approached the parties to work on 
it on a scientific project of high importance, as a bridge-
building mechanism to create understanding between the 
scientists in that conflicted region of the world. The initial 
focus was actually on health, but during the process the issue 
of water in the Jordan Valley which is a very contentious and 
difficult political issue came to the fore as one of the 
primary issues. So a committee of scientists representing all 
three entities, including also the United States, was put 
together under our sponsorship. We provided the money for the 
work and so forth, and that led to a book-length report that I 
cited in my written testimony called Water for the Future. This 
effort is slow. This kind of work is not easy because it means 
building trust and relationships among people where there is 
very little trust to begin with. That, however, has matured 
into a number of efforts on our part to work together with 
those three parties, including something called the frontiers 
of science for young and mid-career scientists of the Middle 
East which we have hosted twice now, once in Istanbul and most 
recently in Spain. This brings young and mid-career scientists 
together for symposia on five quite distinct areas of science, 
to build relationships and understanding.
    We also just had a meeting in January in Jordan on the Dead 
Sea with Palestine, Israel, and Jordan to focus on other areas 
of science that we can work on. Among them are micro-nutrient 
deficiencies which is a serious health problem in the Middle 
East, land degredation and pollution, water resources, 
education. But that takes resources, and virtually all of the 
support for these kinds of activities has come from private 
sources, either philanthropic sources or from our own 
institutional endowments. So what we can do is fairly limited.
    So this allows me to come back to this question of 
resources. You cannot do things without adequate resources, no 
matter how good your intentions are. Resources are important.
    The other key thing is that science can be an essential 
component of soft diplomacy and can help solve problems in all 
parts of the world. I would like to just say one word about our 
part of the world. Our activities also include Latin America. 
You cited Mexico. We did a joint study on water and the water 
issues facing the basin of the Valley of Mexico in Mexico City, 
together with the Mexican Academy of Sciences which has been 
influential in that country. We do continued water work in 
Mexico.
    I just came from Central America on Sunday night. It is a 
disappointment to see that our national engagement and soft 
diplomacy in Central America is very little----
    Mr. Bilbray. Doctor, I totally agree with you. We have 
totally ignored Central America. We spent more time in 
Argentina than we do in Costa Rica or El Salvador.
    Dr. Clegg. The northern Europeans make bigger investment in 
science and technology diplomacy in Central America than does 
the United States despite the fact that this is a vital region, 
of vital interest to us. I will stop talking.
    Mr. Bilbray. Well, I will talk about that later.
    Chairman Baird. We will begin the second round of comments 
and questions. Dr. Calvin, you were building kind of a line of 
thought earlier it seemed like and at the critical juncture 
paused and talked about, okay, so you have got U.S. 
researchers, foreign researchers, and I think you used the word 
there is a lack of a mechanism or some word like that. What 
would a mechanism look like? How would it be administered? What 
would you do if you want to promote scientific diplomacy, 
international collaboration? What would it look like?
    Dr. Calvin. Well, I think again, as I said before, it would 
depend somewhat on which area of the globe I was trying to 
promote this effort. I think if you take for example in China 
where we have had our three China-U.S. summits, what we have 
come out of this is we have a lot of debate and a lot of 
discussion, and we bring scientists together. Everybody is 
excited, and then after three conferences, we are still at the 
same stage because no one can find a good model to really move 
the projects to that next stage of discovery.
    And so I think in the case of China, there is quite a 
reason to believe that we could work with the Chinese 
government to establish a jointly funded research capability 
that would allow for investigators to apply to an agency that 
would be financed by both countries potentially. I don't 
believe that we would want to make an argument that we would 
want to change the dedication of the existing resources at the 
National Science Foundation, for example, because they are 
woefully under funded from my perspective as they sit right 
now, and asking more and giving them less isn't a way to do 
anything better.
    Beyond that, I don't have an effective mechanism because I 
am sure that the political aspects associated with getting 
anything through the channels of dialogue are far beyond my 
experiences and I couldn't advocate in an area where I have so 
little expertise.
    Chairman Baird. The things I found intriguing was, you 
know, we have looked at some of the S&T agreements that our 
State Department has established. I think you said 130 MOAs? I 
think that is more than our government officially has with 
other countries--I don't mean that as a critical comment, more 
just it is--entity may have more international agreements than 
the Federal Government, and the administration of these 
things--they are a relatively small staff, tasked with creating 
these agreements, but the follow-up then becomes a problem.
    I will share an anecdote with you, and I want to pursue 
this issue of funding and how we get around it or detail with 
it. My wife, who does international development work, was in an 
African country and they were talking about the relative small 
number of people some developing countries have who are 
expertise. In this particular African country, they had three 
water sanitation experts, one of whom died of AIDS and the two 
others were killed in a car wreck coming back from his funeral. 
And that was it. You know, in our country you just post an ad 
and you would get 50 applications and you would replace them. 
That was the entire country's water sanitation unit. This issue 
of capacity building is really critical, and one of the 
interesting questions I have is Dr. Wulf, you are an agent in 
the organization. It seems to be able to get money to foreign 
researchers, and yet, other U.S. Government entities seem not 
to be able to do that. Is this a desirable mechanism, are there 
better alternatives?
    One of my questions is does it make sense for example for 
State or USAID to have a fund that while we don't dilute the 
NSF funds as Dr. Calvin I think I agree entirely with what he 
is saying, but nevertheless, an NSF-funded researcher could 
say, okay, I want to collaborate with Dr. So-and-SO in foreign 
country ``X.'' Here is where we will go and everybody knows 
this is where we go. So I throw that question out.
    Dr. Wulf. My understanding is that there might be legal 
restrictions on NSF providing money to foreign researchers. I 
don't quite understand how this works, but they seem to be able 
to fund CRDF for programs that involve foreign researchers 
collaborating with U.S. partners. Actually, I think there are 
some advantages other than legal sleight of hand going on here. 
Because for example, CRDF can negotiate with foreign 
governments for cost-sharing arrangements. That is something 
that NSF or I think any federal agency may not be able to do as 
quickly. And we have been fairly successful at that. The 
foreign governments clearly recognize the advantage of these 
collaborations and have demonstrated that with $43 million of 
cost sharing.
    Chairman Baird. Let me follow up with just a question on 
this. You know, USAID, I think I actually support it, has made 
a real effort to brand. I mean, they have actually gone over 
the top a little bit. I think if you give toothpicks, you would 
have to find a gift to the American people on this toothpick. 
But nevertheless, the idea that in some way when we spend U.S. 
dollars internationally on an AID project, people get the sense 
that, yeah, this is U.S. dollars is a good thing for us. Our 
generosity should be recognized, I think. How does that 
translate into the work CRDF does?
    Dr. Wulf. I think foreign nationals recognize CRDF is a 
U.S. entity, just not the U.S. Government. And that again is 
somewhat of an advantage in places where the intentions of the 
U.S. Government are not necessarily trusted.
    Chairman Baird. Dr. Leshner, you looked like you wanted to 
comment.
    Dr. Leshner. Yeah, I was just going to reiterate the last 
comment that Dr. Wulf made which is that often it is important 
to go through a third party or a non-governmental organization 
so that the sort of the neutrality of the motivation is clear. 
Was that English what I just said? It was an attempt at 
English. And I think because science carries this sort of aura 
around it, it is often important to make clear that the act of 
science diplomacy, either collaboration or for more general 
relationship building, is going on outside of a formal 
governmental framework.
    Dr. Clegg. With respect to Africa, I would like to say a 
couple of things. The first is the U.S. philanthropic community 
has created a large footprint in Africa. The Gates Foundation 
does support direct research in Africa. It is a very large and 
very significant player, as you know. There is also the 
Partnership for Higher Education in Africa which is funded by 
six of the major American philanthropic foundations. So the 
philanthropic community is a very important player in the 
creation of soft diplomacy for the United States, even though 
it is not part of the government. It is possible to leverage 
some of those activities, and it would be useful for the 
government to think through how it might leverage and take 
advantage of the good work being done by American institutions 
in other contexts.
    Another point is that we, together with the science 
academies of the whole world, have created a global 
organizations. One of the messages of that global organization 
has tried to get across to all of the national members is that 
investments in human resources in science and technology 
capabilities within individual countries is an absolute 
necessity if they expect to participate in the economies of the 
21st century, and that is a local responsibility. We cannot 
assume that responsibility, but we can work hard to try and get 
that message across and also to facilitate their movement in 
that direction through incentives.
    Chairman Baird. Dr. Ehlers is recognized for 9-1/2 minutes.
    Mr. Ehlers. At least. Thank you, Mr. Chairman. First, a 
couple of points. Getting to the question of our government 
supporting other scientists in other countries or doing other 
things, I had an experience with my family. My son is a 
geophysicist. I never realized before he even became that how 
much they travel. At the moment he is in Bolivia doing some 
very esoteric experiments in rather dangerous territory, and he 
has also done research in British Columbia, about 300 miles 
from the nearest person. He had a commitment from a colleague 
in Germany to do some research together. The colleague obtained 
funds from the German government to do it if the U.S. would 
provide the money. My son submitted a grant proposal, could not 
get any money from the Federal Government to match a project 
with the German. That seems a bit strange to me. And of course, 
my personal ethics didn't allow me to intervene on his behalf, 
but I thought that was symptomatic of the real problem here.
    The issue of resources, Dr. Clegg, you went into that a 
number of times, the resources in other countries. Are you 
talking about money or a lot of other resources because I gave 
you the example of my friend who was needing three O rings and 
things like that in a relatively advanced country. I think that 
is a major problem judging from the foreign scientists I have 
worked with. Just getting equipment, and I am not talking about 
getting money from the government to order equipment from the 
U.S., but I am talking about the mundane equipment that one 
needs every day in the laboratory. Have you encountered that as 
a major----
    Dr. Clegg. Oh, absolutely, particularly in travels in the 
developing world, in Latin America, in parts of Africa where 
the ability to put together a functional laboratory is 
inhibited by the lack of access and also the lack of 
maintenance for high-quality scientific equipment. That is a 
very big issue.
    Typically when we say resources, we are talking money one 
way or the other. It is a nice way of saying money. But there 
are other resources which are absolutely crucial. One is access 
to the world's scientific literature. You cannot be as you very 
well know of an effective practicing scientist without access 
to the contemporary development of knowledge in a field. And 
the transforming technology of our era is electronic 
communication. It is now possible to access knowledge almost 
from anywhere in the world. There are just two barriers. One 
barrier is infrastructure, whether the scientists in a 
particular country have the infrastructure to get on the web 
and access the scientific literature, and the other is 
intellectual property issues associated with publishers like my 
friends. Being able to access the scientific literature, there 
are places where the U.S. Government could be of direct help. 
Creating digital scientific libraries where resources again 
were provided to buy site licenses that would allow people in 
poor countries to access the scientific literature. And we have 
worked together on programs in limited areas in that context. 
One is Pakistan where we found that we could purchase bundled 
site licenses at a huge discount. So it is possible to do those 
sorts of things.
    Mr. Ehlers. Alan?
    Dr. Leshner. There is a large consortium called HINARI that 
provides free access to the world's scientific literature. 
There are a very large number of countries in the developing 
world that most major journals participate in. The point I 
wanted to add is the other, and it may be resources but it may 
not only be resources, is scientific careers, that is, that it 
has to be clear that there is a career path in a developing 
country, that it is not just going to be a momentary 
opportunity or you won't be able to recruit the best and 
brightest into careers. Many countries now are working very 
hard and investing very hard to bring the scientists who train 
in the United States back home by providing career 
opportunities, and it is very effective. China, of course, is 
the best example of that at the moment. But other countries are 
doing this as well.
    Mr. Ehlers. You know, I am reminded of a cliche. Forgive 
me. Churchill was supposed to have made the comment that 
America always does the right thing after they have done all 
the other things first. It seems to me that we are at a state 
where we should think seriously about doing this as a national 
effort in a coordinated way instead of having all of the 
different organizations doing this. And there are tremendous 
opportunities there. I wouldn't dare to put this in the State 
Department because they don't seem to understand the problem 
and the urgency. Are we going to give the charge to the 
National Science Foundation to do it? Not without increasing 
their budgets substantially. But we really have to think 
seriously about developing mechanisms rather than depending on 
the private sector or the National Academy, the universities, 
or whatever. There is immense international relations work to 
be done here, and the Federal Government is just not doing it. 
It is depending on you folks to do it, and that is not the most 
efficient way to get it done. So I hope we can pursue this idea 
together in some way.
    Dr. Wulf. Can I reinforce that? Just in my travels around 
the world in the last 10 years, I feel we are at a moment in 
time, where this kind of activity could have an enormous 
impact, positive impact, on U.S. foreign policy and U.S. hopes 
for democratizing the rest of the world. We have just got an 
opportunity, and it is very frustrating that we are limited in 
being able to take advantage of that opportunity.
    Mr. Ehlers. That is very true, and you know, these things 
happen in a haphazard way. I had a constituent come to me a 
couple of years ago. They had a great idea for a new water 
filter. It is made out of concrete with sand in it, et cetera, 
and he had backing of the Rotary Club. He wanted to know what I 
could do for him through the government. I said, not much. But 
I did put him in touch with a friend who works regularly in 
Africa as part of our religious denomination, and then there is 
another friend of mine who operates a plastic extrusion plant 
so he replaced the concrete with plastic. He is producing these 
things at very low cost. Easy to ship to Africa. We are saving 
an incredible number of lives just with a simple, local project 
which results in purified water on a per-family or per-
community basis. It is amazing, just a few people getting 
together. That is without the benefit of the Government, and 
maybe it is best that we don't have the government involved in 
it. It would increase the cost and the difficulty. But 
nevertheless, we are missing--as a nation we are missing all 
these opportunities.
    Chairman Baird. Thank you, Dr. Ehlers. Thank you. The 
points you raise is really the purpose of these hearings. The 
whole series of hearings is to try to understand how, from many 
perspectives, what is being done and then see what we can do in 
an improved way until this is part of that. I agree, I want to 
raise the profile and that is indeed why we are having this 
meeting.
    We have now been joined by Mr. Carnahan--we mentioned 
earlier their role, Russ, was discussed the importance of the 
Foreign Relations Committee. Russ plays a central role because 
he has a joint assignment to both this committee and the 
Foreign Relations. So welcome, Mr. Carnahan. Do you have any 
questions for our witnesses? Recognized for five minutes.
    Mr. Carnahan. Thank you and I apologize for being late 
today. I got tied up on something else, but wanted to make a 
special point to be here.
    I guess I wanted to first start with kind of a broad 
question, and we may have covered some of this but as we know, 
the Department of State is chiefly responsible for our 
diplomatic relations and engagement; and I guess I would want a 
description from you of what their--how they are using the role 
of science and diplomacy now in ways that you think is working. 
What do you think is working best about that? And then also, 
what do you think is some of the obvious things that they are 
missing in terms of how it can be better integrated, in what 
they do.
    Dr. Leshner. A couple of examples immediately come to mind. 
One is in a partnership with the Department of State led by 
Paula Dobrianski. We organized a meeting on women in science 
and engineering and the Muslim world, and that was an extremely 
effective example of science diplomacy at its best where 200 
women from I believe 30-some countries participated in that 
meeting. Recently our Chief International Officer, Vaughan 
Turekian, just came back from a meeting in Uruguay to start 
talking about some of the collaborations that an organization 
like AAAS might be able to help facilitate. So there are 
examples.
    I think the issue that did come up earlier is an important 
one and that is the way in which these activities are initiated 
and maintained is critically important. And often to have a 
non-governmental organization as a clear partner and help lend 
neutrality, whatever the word is, clear motivation to it so 
that it is not just implementing a particular political agenda 
but also has scientific motivation as well.
    Dr. Clegg. I will just add a tiny bit. From actually in my 
written testimony was a comment on the May 2007 strategic plan 
that the Department of State had developed on setting 
international goals for their science, technology, and health 
diplomacy. We think those are a very good set of goals. I think 
our major concern is whether they have the resources and 
capabilities to implement them. So being able to reach out to 
other organizations, like those represented at this table, as 
partners in implementing those goals may be helpful.
    The only other comment is that often the science technology 
capabilities at the embassy level in U.S. missions abroad is 
fairly limited, and that is a disadvantage. It is again a 
resource-driven question, but it is a disadvantage to U.S. 
diplomacy because it makes it more difficult for us to 
understand and interpret it, S&T strengths and developments in 
the countries that we are engaged with.
    Dr. Wulf. I would second the last comment that Mike made. 
Over the last several decades, the number of science attaches 
in foreign embassies has dramatically dropped. The emphasis in 
most of the State Department now is on political and economic 
issues. It is a positive thing that there now is a science 
advisor to the Secretary of State. We have a particularly good 
person, Nina Fedoroff, in that position now. But as currently 
structured and to some extent as currently culturally oriented, 
the State Department is not particularly good at implementing 
the kinds of things that we have been talking about this 
morning. That is why they use us and I think appropriately so.
    Dr. Calvin. I think the only thing I need to add on this is 
when I talk about the science and diplomacy, the first 
observation that comes to mind is always that the scientific 
timetable for success and the political timetable for interest 
often don't match. And it is a major commitment for people to 
reshift their careers to certain areas of emphasis and they are 
very hesitant to do so, given some past experiences in the 
high-energy physics arena, for example, to make these leaps of 
faith that they can't believe that their crew would be able to 
be supported once they make that transition.
    Mr. Carnahan. Good point. I appreciate all of those. One 
thing in particular I wanted to mention that I was on a recent 
delegation trip that included a stop in India where they had 
announced a very large expansion of the Fulbright Program 
there, and it was done in a unique way, really opening it up to 
public and private funding in a way that dramatically expands 
what they are doing there.
    And so it was a neat, kind of local initiative what they 
are doing right there, organized through the embassy there. 
That might be a good model to look at growing those kind of 
programs in other parts of the world. Thank you very much.
    Chairman Baird. Mr. Bilbray.
    Mr. Bilbray. Yes, Mr. Chairman. One of the things I think 
we were talking about is the challenges out there, and somebody 
will bring it up. I think, Mr. Chairman, one of the--while we 
face the challenges, we need to sort of look at great 
opportunities. I think that we use the term worldwide web and 
don't think about how deep it really does run. I mean, 
everybody is astonished they can go to Kuwait and get on the 
Internet. Mr. Chairman, I think any of us that have spent time 
in the third world, when you go back into the villages in some 
of the poorest neighborhoods, some grandmother has figured out 
to pick up two or three old computers and the number one source 
of communication between countries now, in third world 
countries, are not telephones, not mail, it is the Internet. So 
I think this issue of the accessibility of third-world nations 
having the accessibility to the world information is something 
that really is a great opportunity if we can figure out how to 
tear those barriers down. And it has just astonished me as I 
travel in the third world when I get back there. If I need to 
communicate with my staff, I don't make phone calls, I get on 
the Internet and just figure out how to pay, you know, 15-
whatever to a little old lady just so I can spend 15 minutes to 
communicate. Just let my staff know that they still have a job.
    Building on that, let me just sort of go a whole different 
way. Dr. Calvin, we were looking at the comment on Central 
America. I mean, how many Americans realize that we are 400 
miles further away from San Diego where we sit now, Mr. 
Chairman, than where we are from Central America, that it is 
right in our backyard. And I would just say this to somebody on 
the Foreign Relations Committee--maybe the Science Committee 
and Foreign Relations Committee really need to get together and 
say the poor stepchild is Central America. We talk about South 
America, we talk about Mexico, but Central America is just 
literally a diplomatic black hole for us in so many ways. And 
Dr. Calvin, you have talked about Latin America. Is there any 
specific items that you can point out? Panama is a good example 
but you know, we are talking about some of the poorest people 
right in our back yards. It is going to have an effect on our 
grandchildren's future than any other. What are we doing in 
Central America?
    Dr. Calvin. I guess I will take a sort of the securest 
route to get to your answer. Our relationship with Mexico has 
been very effective for a couple of reasons, clearly on the 
proximity between Texas and Mexico is certainly an advantage. 
But also because of the Border Governor's Initiatives and other 
activities that are taking place, there is a recognition that 
these scientific changes can also produce economic development 
benefits that can help the stability of the relationship 
between Texas and Mexico, but Mexico has a size advantage. And 
when you take the relationship we have with Mexico and you talk 
to people--has come to visit us from Panama because they want 
to put a duplicate relationship together that CONACYT developed 
in Mexico, and the difficulty is the size of the capacity that 
exists in Panama or these other countries. It is very difficult 
to duplicate because Texas A&M University and 40 universities 
in Mexico. We have Texas A&M University and maybe over two or 
three universities in Panama, and many of them, their 
researchers are not really trained to be globally competitive 
in research and so their interests are in upgrading the 
capacity to be able to become partners with global environment 
in the competitive research arena.
    So we are trying to figure out how to partner with distinct 
political groups in a global area because each of them doesn't 
really have enough capacity to work as effectively individually 
as Mexico.
    Mr. Bilbray. Well, that is why like last month we met 
with--the southern parts of Mexico have not gained from any of 
the exchanges. They are economic cul-de-sacs. But Central 
America, which was once a united country, still has its 
immigration policy as the United States of Central America. We 
need to address those comprehensively to get them used to 
working together, but I would be interested in the experience 
you had in Central America and your observations and the 
challenges there because we have got a whole lot of scientific 
research. I am overseeing Scripps Institute looking at Central 
America for the development of biofuels, and the infrastructure 
is traditionally not there but the attitude toward the United 
States is so positive right now, I worry about us looking to, 
and no offense, Mr. Chairman, looking to Africa and Asia while 
we overlook our neighbors. And if you could address that?
    Dr. Clegg. Well, I think you are making a very, very 
important point. Much of Central America is extremely poor, 
Guatemala, Honduras, Nicaragua. Costa Rica is a bit better, and 
the question is why does Costa Rica stand out, and the reason 
is that they have invested a lot more in education and tried to 
build an economy focused on the comparative advantages that 
Costa Rica has, particularly in the environmental context. But 
in Nicaragua for example, 50 percent of the population is 
illiterate. I have had experiences in Guatemala, El Salvador, 
and Nicaragua in my duties representing the Academy. One of the 
things that is going to be key for them to move forward in 
their own development is to make more investments in education. 
But those to some extent are local responsibilities. There are 
things that we can help with by providing incentives, but there 
are not things we can do for them.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Dr. Wulf. Can I just add something here? This is about 
Venezuela which is not quite Central America but almost. I had 
a fascinating experience in January. I was privileged to be 
inducted into the National Academy of Sciences in Venezuela. I 
went down there with some trepidation given the bellicose tone 
of exchanges between our two governments, and what I found was 
exactly what we are talking about in this hearing, namely the 
ability of scientists and engineers, because of their shared 
values, because of their frequent training in the United States 
to communicate. I think we have an enormous opportunity to turn 
the situation around with Venezuela and the opening is through 
scientists and engineers. I think this is globally true, but it 
was just such a forceful, personal experience.
    Mr. Bilbray. Well, historically in Latin America, Academia 
as a whole has not been politically threatened, and so the 
political structure has allowed academia to do trans-border 
communication that traditionally they would not allow any other 
institution to do. So we do have the opportunity if they are 
willing to allow academia and scientists to cooperate and work 
without direct supervision by government, where other 
institutions would not be allowed to do it.
    Dr. Wulf. And this is a perfect example of where using NGOs 
doesn't introduce the complication of government-to-government 
interaction.
    Dr. Clegg. Just to follow up, I just returned from a 
meeting of the network of Academies of Science in this 
hemisphere which was held in Central America this weekend. We 
have a very effective organization that could do much, much 
more in that network of science academies; and it tries to 
address three questions. One is the problem of education in the 
hemisphere, the second is water resource issues in the 
hemisphere. So we have the means to do much more. We have built 
the relationships. We also command respect among our peers in 
that part of the world because we have tried to work together 
with them. But what we are able to do at the moment is limited 
once again by our resource capabilities.
    Chairman Baird. Thank you, Mr. Bilbray. I think your points 
are well-taken about relative neglect of our own hemisphere. I 
know well, having flown to Guatemala once and I get off the 
airplane, I thought I would be back home in Vancouver, 
Washington, yet I am already in Guatemala. We forget that.
    I thank the witnesses for not only your outstanding and 
insightful testimony, both verbal and written today, but your 
many years of service, each and every one of you. The record of 
this committee will remain open for additional statements from 
Members and for answers to any follow-up questions. We thank 
the witnesses, the audience and the Members of the Committee, 
and with that, the hearing stands adjourned. Thank you very 
much.
    [Whereupon, at 11:51 a.m., the Subcommittee was adjourned.]

                                   

</pre></body></html>
